<html>
<title> - THIS IS NOT A DRILL: EDUCATION-RELATED RESPONSE AND RECOVERY IN THE WAKE OF NATURAL DISASTERS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                 THIS IS NOT A DRILL: EDUCATION-RELATED
                  RESPONSE AND RECOVERY IN THE WAKE OF
                           NATURAL DISASTERS

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE EARLY CHILDHOOD, ELEMENTARY,
                        AND SECONDARY EDUCATION


                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, JUNE 5, 2019

                               __________

                           Serial No. 116-27

                               __________

      Printed for the use of the Committee on Education and Labor
      
      
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      




           Available via the World Wide Web: www.govinfo.gov
                                   or
              Committee address: https://edlabor.house.gov
              
              
                            ______
                          

             U.S. GOVERNMENT PUBLISHING OFFICE 
 36-906 PDF           WASHINGTON : 2020             
              
              
              
              
                    COMMITTEE ON EDUCATION AND LABOR

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

Susan A. Davis, California           Virginia Foxx, North Carolina,
Raul M. Grijalva, Arizona            Ranking Member
Joe Courtney, Connecticut            David P. Roe, Tennessee
Marcia L. Fudge, Ohio                Glenn Thompson, Pennsylvania
Gregorio Kilili Camacho Sablan,      Tim Walberg, Michigan
  Northern Mariana Islands           Brett Guthrie, Kentucky
Frederica S. Wilson, Florida         Bradley Byrne, Alabama
Suzanne Bonamici, Oregon             Glenn Grothman, Wisconsin
Mark Takano, California              Elise M. Stefanik, New York
Alma S. Adams, North Carolina        Rick W. Allen, Georgia
Mark DeSaulnier, California          Francis Rooney, Florida
Donald Norcross, New Jersey          Lloyd Smucker, Pennsylvania
Pramila Jayapal, Washington          Jim Banks, Indiana
Joseph D. Morelle, New York          Mark Walker, North Carolina
Susan Wild, Pennsylvania             James Comer, Kentucky
Josh Harder, California              Ben Cline, Virginia
Lucy McBath, Georgia                 Russ Fulcher, Idaho
Kim Schrier, Washington              Van Taylor, Texas
Lauren Underwood, Illinois           Steve Watkins, Kansas
Jahana Hayes, Connecticut            Ron Wright, Texas
Donna E. Shalala, Florida            Daniel Meuser, Pennsylvania
Andy Levin, Michigan*                William R. Timmons, IV, South 
Ilhan Omar, Minnesota                    Carolina
David J. Trone, Maryland             Dusty Johnson, South Dakota
Haley M. Stevens, Michigan
Susie Lee, Nevada
Lori Trahan, Massachusetts
Joaquin Castro, Texas
* Vice-Chair

                   Veronique Pluviose, Staff Director
                 Brandon Renz, Minority Staff Director
                                 ------                                

   SUBCOMMITTEE EARLY CHILDHOOD, ELEMENTARY, AND SECONDARY EDUCATION

   GREGORIO KILILI CAMACHO SABLAN, Northern Mariana Islands, Chairman

Kim Schrier, Washington              Rick W. Allen, Georgia,
Jahana Hayes, Connecticut              Ranking Member
Donna E. Shalala, Florida            Glenn ``GT'' Thompson, 
Susan A. Davis, California               Pennsylvania
Frederica S. Wilson, Florida         Glenn Grothman, Wisconsin
Mark DeSaulnier, California          Van Taylor, Texas
Joseph D. Morelle, New York          William R. Timmons, IV, South 
                                         Carolina
                                         
                                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 5, 2019.....................................     1

Statement of Members:
     Allen, Hon. Rick W., Ranking Member, Subcommittee Early 
      Childhood, Elementary, and Secondary Education.............     4
        Prepared statement of....................................     5
    Sablan, Hon. Gregorio Kilili Camacho, Chairman, Subcommittee 
      Early Childhood, Elementary, and Secondary Education.......     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Brogan, Mr. Frank, Assistant Secretary for Elementary and 
      Secondary Education, U.S. Department of Education, 
      Washington, DC.............................................     6
        Prepared statement of....................................     8
    Muna, Mr. Glenn, Coventry, Commissioner, CNMI Public School 
      System, Saian, M...........................................    34
        Prepared statement of....................................    37
    Sota-Thomas, Ms. Rosa, President, St. Croix Federation of 
      Teachers AFT Local 1826, Kingshill, St. Croix, V.I.........    40
        Prepared statement of....................................    42
    Winn, Mr. John L., M.A., Florida Commissioner of Education, 
      Tallahassee, FL............................................    46
        Prepared statement of....................................    48
    Herrington, Dr. Steve, Ph.D., Superintendent of Schools, 
      Sonoma County Schools, Santa Rosa, CA......................    51
        Prepared statement of....................................    53

Additional Submissions:
    Questions submitted for the record by:
        Scott, Hon. Robert C. ``Bobby'', a Representative in 
          Congress from the State of Virginia....................    73
        Taylor, Hon. Van, a Representative in Congress from the 
          State of Texas.........................................    75
    Responses to questions submitted for the record by:
        Mr. Brogan...............................................    76
        Mr. Winn.................................................    78


                 THIS IS NOT A DRILL: EDUCATION-RELATED

                   RESPONSE AND RECOVERY IN THE WAKE

                          OF NATURAL DISASTERS

                              ----------                              


                        Wednesday, June 5, 2019

                       House of Representatives,

                    Subcommittee on Early Childhood,

                  Elementary, and Secondary Education,

                   Committee on Education and Labor,

                            Washington, DC.

                              ----------                              

    The subcommittee met, pursuant to notice, at 9 a.m., in 
room 2176, Rayburn House Office Building, Hon. Gregorio Kilili 
Camacho Sablan (chairman of the subcommittee) presiding.
    Present: Representatives Sablan, Schrier, Hayes, Shalala, 
Davis, Morelle, Scott, Allen, Thompson, Grothman, Taylor, 
Timmons, and Foxx.
    Staff present: Tylease Alli, Chief Clerk; Nekea Brown, 
Deputy Clerk; Paula Daneri, Education Policy Fellow; Emma 
Eatman, Press Assistant; Christian Haines, General Counsel, 
Education; Ariel Jona, Staff Assistant; Stephanie Lalle, Deputy 
Communications Director; Max Moore, Office Aide; Jacque Mosely, 
Director of Education Policy; Veronique Pluviose, Staff 
Director; Lakeisha Steele, Professional Staff; Loredana 
Valtierra, Education Policy Fellow; Banyon Vassar, Deputy 
Director of Information Technology; Adrienne Rolie Webb, 
Education Policy Fellow; Courtney Butcher, Minority Director of 
Coalitions and Members Services; Amy Raaf Jones, Minority, 
Director of Education and Human Resources Policy; Hannah 
Matesic, Minority Director of Operations; Kelley McNabb, 
Minority Communications Director; Casey Nelson, Minority Staff 
Assistant; Mandy Schaumburg, Minority Chief Counsel and Deputy 
Director of Education Policy; Meredith Schellin, Minority 
Deputy Press Secretary and Digital Advisor; and Brad Thomas, 
Minority Senior Education Policy Advisor.
    Chairman Sablan. Good morning. The committee on Education 
and Labor will come to order. Welcome, everyone. I note that a 
quorum is present, and the committee is meeting today in a 
legislative hearing to hear testimony on This is Not a Drill, 
Education-Related Response and Recovery in the Wake of Natural 
Disasters.
    Pursuant to committee rule 7(c), opening statements are 
limited to the chair and the ranking member. This allows us to 
hear more from our witnesses sooner and provides all members 
with adequate time to ask questions.
    A small note. This hearing was scheduled before we knew 
that this was going to be a short week. Votes will be called at 
10, and Members will go to vote. And Mr. Allen has agreed to 
come back and continue the hearing so we can hear every witness 
testify.
    So I now recognize myself for making an opening statement. 
Today we are here to examine the Federal Government's response 
to school communities impacted by natural disasters and the 
diverse challenges our schools face on the road to recovery. We 
need to know what has gone right, what has gone wrong, and what 
needs to improve for the sake of our children and their schools 
because we do know that it is a question of when, not if, the 
next storm will hit.
    Our distinguished witnesses will share their harrowing 
experience rebuilding communities in the wake of some of our 
country's most devastating and recent natural disasters. We 
also have an opportunity to hear directly from the Education 
Department, the Secretary is here, about their role in helping 
these communities recover.
    Just last October, super Typhoon Yutu devastated my own 
district, the Northern Marianas. Unfortunately, despite being 
the most powerful storm in the world that year and the worst 
American storm since 1935, Yutu received minimal media coverage 
or even mentions in the President's Twitter feed unlike other 
storms did.
    However, Mr. Secretary, I do appreciate Secretary DeVos' 
phone call to me just days after Yutu with her pledge of 
support for Marianas school, teachers, and students. Secretary 
DeVos followed through on her pledge by releasing $1.1 million 
in project served grant grand funds in January for the Marianas 
public school system, but our students will need much more 
Federal support to restore proper school facilities for the 
over 900 Hopwood Middle School students whose campus was 
totally destroyed by Yutu and are still learning in FEMA built 
tents.
    Despite many families being displaced and even losing their 
homes, I am inspired by the strength and resilience of our 
students. Their perseverance is reflected in the 900 high 
school seniors who will receive their diplomas next week, I 
will say, with many planning to attend college or serve their 
country in the military. Their perseverance has shown through 
the Marianas high school students I met who won the right to 
represent the Marianas in the congressional App Challenge for 
the second year in a row.
    This year's congressional Art Competition winner, Miss 
Julia Theresa Malate's artwork, ``Marianas Strong'' shows the 
strength of the people of the Marianas after Super Typhoon Yutu 
devastated our islands. The U.S. Virgin Islands, USVI and 
Puerto Rico, were also devastated by Hurricanes Irma and Maria 
in 2017. In the U.S. Virgin Islands it took 5 weeks for 
affected public schools to finally reopen. Over a year later, 
these reopened schools continued to struggle with damage, 
physical, and technological infrastructure.
    While this committee extended an invitation to our friends 
in Puerto Rico to testify, we were disappointed they could not 
join us today. Thank you.
    In response to these disasters, Congress has thrice 
approved funding to provide relief to Puerto Rico and the U.S. 
Virgin Islands, yet very little of the most helpful education 
and disaster relief funding has been spent, and FEMA has not 
started rebuilding schools.
    Elsewhere in our country, California was also devastated by 
natural disasters. Over the last 2 years, California has been 
ravaged by the State's worst wildfires in history, killing over 
100 people, destroying nearly 20,000 homes, and cutting off 
schooling for thousands of students for weeks. In total, 12 
schools were destroyed, and 14 schools were damaged.
    Beyond the damage the wildfires caused to infrastructure, 
air quality was severely impacted. The teachers union in 
Oakland Unified School District, asked that masks be provided 
for all students and teachers if district officials did not 
close the schools.
    School communities in the Marianas, Puerto Rico, the U.S. 
Virgin Islands, and Northern California face unique challenges 
recovering from natural disasters. Yet, a common thread across 
this crisis is a Federal Government that refuses to put people 
before politics and acknowledge the impact climate change has 
on communities where still up to this week, Republican 
lawmakers repeatedly blocked passage of a key funding bill to 
assist communities recovering from Super Typhoon Yutu, the 
Northern California wildfires, Hurricane Maria, and other 
recent disasters.
    The $19 billion disaster relief package includes $165 
million to address recovery-related educational needs. The bill 
also mandates GAO audits, an investigation that would further 
assist this committee's work to oversee and improve the Federal 
Government's disaster response.
    While we may disagree on our assessments of Federal 
responses to natural disaster, the underlying crisis we face is 
undeniable. Climate change caused by human activities has 
worsened natural disasters and made emergency preparedness in 
schools more difficult. As climate change continues to 
intensify, the Federal Government's responsibility to provide 
school communities with the resources to recover from natural 
disaster is more important now than ever before.
    Today's hearing is a critical first step toward ensuring 
that students, families, and school staff can rely on the 
Federal Government to help them not only recover from natural 
disasters but actually emerge stronger.
    I want to thank the witnesses for joining us today, and I 
now yield to my friend and ranking member, Mr. Allen, for his 
opening statement.
    [The statement of Chairman Sablan follows:]

 Prepared Statement of Hon. Gregorio Kilili Camacho Sablan, Chairman, 
   Subcommittee Early Childhood, Elementary, and Secondary Education

    Today, we are here to examine the Federal Government's response to 
school communities impacted by natural disasters and the diverse 
challenges our schools face on the road to recovery. We need to know 
what has gone right, what has gone wrong, and what needs to improve for 
the sake of our children and their schools. Because we do know that it 
is a question of when, not if, the next storm will hit.
    Our distinguished witnesses will share their harrowing experiences 
rebuilding communities in the wake of some of our country's most 
devastating and recent natural disasters. We also have an opportunity 
to hear directly from the Education Department about their role in 
helping these communities recover.
    Just last October, Super Typhoon Yutu devastated my own district, 
the Northern Mariana Islands. Unfortunately, despite being the most 
powerful storm in the world that year and the worst American storm 
since 1935, Yutu received minimal media coverage and or even mentions 
in the President's twitter feed unlike other storms did. However, I do 
appreciate Secretary DeVos' phone call to me just days after Yutu with 
a pledge of support for Marianas schools, teachers, and students.
    Secretary DeVos' followed through on her pledge by releasing $1.1 
million in Project SERV grant funds in January for the Marianas Public 
School System. But our students will need much more Federal support to 
restore proper school facilities for the over 900 Hopwood Middle School 
students whose campus was totally destroyed by Yutu and are still 
learning in FEMA-built tents.
    Despite many families being displaced and even losing their homes, 
I am inspired by the strength and resilience of our students. Their 
perseverance is reflected in the 900 high school seniors will receive 
their diplomas this month with many planning to attend college or serve 
their country in the military. Their perseverance is shown through the 
Marianas High School students I met who won the right to represent the 
Marianas in the congressional App Challenge for the second year in a 
row. And this year's congressional Art Competition winner Ms. Julia 
Theresa Malate's artwork, ``Marianas Strong'' shows the strength of the 
people of the Marianas after Super Typhoon Yutu devastated our islands.
    The U.S. Virgin Islands, or USVI, and Puerto Rico were also 
devastated by Hurricanes Irma and Maria in 2017. In USVI, it took 5 
weeks for affected public schools to finally reopen. Over a year later, 
these reopened schools continue to struggle with damaged physical and 
technological infrastructure.
    While this Committee extended an invitation to our friends in 
Puerto Rico to testify, we were disappointed they could not join us 
today.
    In response to these disasters, Congress has thrice approved 
funding to provide relief to Puerto Rico and the U.S. Virgin Islands. 
Yet, very little of the most helpful educational disaster relief 
funding has been spent and FEMA has not started rebuilding schools.
    Elsewhere in our country, California was also devastated by natural 
disasters. Over the last 2 years, California has been ravaged by the 
State's worst wildfires in history, killing over 100 people, destroying 
nearly 20,000 homes, and cutting-off schooling for thousands of 
students for weeks. In total, 12 schools were destroyed, and 14 schools 
were damaged.
    Beyond the damage the wildfires caused to infrastructure, air 
quality was severely impacted. The teachers' union in Oakland Unified 
School District asked that masks be provided for all students and 
teachers if district officials did not close the schools.
    School communities in the Marianas, Puerto Rico, USVI, and Northern 
California face unique challenges to recovering from natural disasters. 
Yet, the common thread across these crises is a Federal Government that 
refuses to put people before politics and acknowledge the impact 
climate change has on communities.
    Worse still, until this week, Republican lawmakers repeatedly 
blocked passage of a key funding bill to assist communities recovering 
from Super Typhoon Yutu, the Northern California wildfires, Hurricane 
Maria, and other recent disasters. The $19 billion disaster relief 
package includes $165 million to address recovery-related educational 
needs. The bill also mandates GAO audits and investigations that will 
further assist this committee's work to oversee and improve the Federal 
Government's disaster response.
    While we may disagree in our assessments of Federal responses to 
natural disasters, the underlying crisis we face is undeniable: climate 
change caused by human activities has worsened natural disasters and 
made emergency preparedness in schools more difficult. As climate 
change continues to intensify, the Federal Government's responsibility 
to provide school communities with the resources to recover from 
natural disasters is more important now than ever before.
    Today's hearing is a critical first step toward ensuring that 
students, families, and school staff can rely on the Federal Government 
to help them not only recover from natural disasters but emerge 
stronger.
    I want to thank the witnesses for joining us today and I now yield 
to the Ranking Member, Mr. Allen, for his opening statement.
                                 ______
                                 
    Mr. Allen. Thank you, Mr. Chairman, for yielding.
    You know, we sometimes forget that when a natural disaster 
strikes an area, it doesn't discriminate what it destroys in 
its path. Schools are central gathering places, and they are 
just as a vulnerable as homes, businesses, and churches when a 
natural disaster hits our communities.
    Hurricanes and fires, like the ones that have devastated 
the U.S. in recent years, demolish school buildings and 
displace thousands of students, forcing communities to scramble 
to rebuild.
    When Congress provides disaster aid, making sure that this 
funding is used well is critical to the successful and 
efficient renewal of America's destroyed schools. The 
Department must also assure it will support technical 
assistance, regulatory flexibility, and other measures to allow 
State and local leaders the resources necessary to rebuild 
after a natural disaster and serve students in their 
communities.
    There are no better witnesses to ask about the struggles of 
rebuilding schools after natural disasters than local and State 
education leaders. They are best suited to brief Congress on 
the challenges that come with reconstruction and the success 
and areas for improvement in the Department of Education in 
support of disaster relief efforts.
    I look forward to this hearing and to working with my 
colleagues to ensure that schools are not forgotten in the 
aftermath of natural disasters. We can't always fully prepare 
for a destructive storm or fire, but we should be doing all we 
can to make the returning of America's children to school as 
seamless as possible. Thank you, and I yield back.
    [The statement of Mr. Allen follows:]

Prepared Statement of Hon. Rick W. Allen, Ranking Member, Subcommittee 
          Early Childhood, Elementary, and Secondary Education

    We sometimes forget, that when a natural disaster strikes an area, 
it doesn't discriminate what it destroys in its path. Schools are 
central gathering places and they are just as vulnerable as homes, 
businesses, and churches when a natural disaster hits our communities. 
Hurricanes and fires, like the ones that have devastated the U.S. in 
recent years, demolished school buildings and displaced thousands of 
students, forcing communities to scramble to rebuild.
    When Congress provides disaster aid, making sure that this funding 
is used well is critical to the successful and efficient renewal of 
America's destroyed schools. The Department must also assure it will 
support technical assistance, regulatory , and other measures, that 
allow State and local leaders the resources necessary to rebuild after 
a natural disaster and serve students in their communities.
    There are no better witnesses to ask about the struggles of 
rebuilding schools after natural disasters than local and State 
education leaders. They are best suited to brief Congress on the 
challenges that come with reconstruction and the successes and areas 
for improvement in the Department of Education's support of disaster 
relief efforts.
    I look forward to this hearing and to working with all my 
colleagues to ensure that schools are not forgotten in the aftermath of 
natural disasters. We can't always fully prepare for a destructive 
storm or fire, but we should be doing all we can to make the returning 
of America's children to school as seamless as possible.
                                 ______
                                 
    Chairman Sablan. Thank you very much, Mr. Allen.
    And without objection, all other members who wish to insert 
written statements into the record may do so by submitting them 
to the committee clerk electronically in Microsoft Word format 
by 5 p.m. on Wednesday, June 19.
    And now I would like to introduce our witness for the first 
panel. Mr. Frank Brogan serves as the Assistant Secretary for 
Elementary and Secondary Education at the United States 
Department of Education. Secretary Brogan most recently served 
as Chancellor of Pennsylvania's public universities. I couldn't 
help but noticing you and Dr. Shalala giving each other bear 
hugs.
    He began his career as a fifth grade teacher in Martin 
County, Florida, and later served as a dean of students, 
assistant principal, principal, and superintendent before being 
elected Florida's Commissioner of Education in 1994.
    Mr. Brogan continued his advocacy for public education when 
he was selected to serve as Lieutenant Governor of Florida in 
1998 and 2002. After 5 years in that role, he was named 
President of Florida Atlantic University, a position he held 
until 2009 when he was selected to serve as Chancellor of 
Florida's public universities.
    We appreciate all the witnesses for being here today and 
look forward to your testimony. Let me remind the witnesses 
that we have read your written statements, and they will appear 
in full in the hearing record. Pursuant to committee rule 7(d) 
and committee practice, each of you is asked to limit your oral 
presentation to a 5-minute summary of your written statement. 
Let me remind the witnesses that pursuant to Title 18 of the 
U.S. Code, Section 1001, it is illegal to knowingly and 
willfully falsify any statement, representation, writing, 
document, or material fact presented to Congress or otherwise 
conceal or cover up a material fact.
    Before you begin your testimony, please remember to push 
the button on the microphone in front of you so that it will 
turn on and the members can hear you. They have to push the 
button to turn on the lights too.
    But as you begin to speak, the light in front of you will 
turn green. After 4 minutes, the light will turn yellow to 
signal that you have 1 minute remaining. When the lights turn 
red, your 5 minutes have expired, and we ask that you please 
wrap up. When answering a question, please remember to once 
again turn your microphone on.
    I now welcome and recognize Assistant Secretary Brogan for 
his oral statement. Thank you.


 STATEMENT OF FRANK BROGAN, ASSISTANT SECRETARY FOR ELEMENTARY 
    AND SECONDARY EDUCATION, U.S. DEPARTMENT OF EDUCATION, 
                        WASHINGTON, D.C.

    Mr. Brogan. How`s that? Thank you. The lights were easier, 
Mr. Chairman.
    I want to thank you all very much, Mr. Chairman, and again, 
ranking member, and members for giving me the opportunity to be 
with you and the committee members today, and thank you for the 
opportunity to share how the Department of Education does work 
very hard to help students, their families, and their 
communities and States and territories recover from natural 
disasters.
    In 2017, hurricanes in Florida, Texas, Georgia, Puerto 
Rico, and the United States Virgin Islands, and wildfires in 
California disrupted far too many learning environments for 
students and teachers. Those of us at the Department of 
Education were, indeed, moved to minimize impacts on students 
of all ages, their teachers, and their schools, and we continue 
to support communities as they work to reopen schools and 
restore learning environments.
    Secretary DeVos, as mentioned, and other senior Department 
officials traveled to each of the hurricane-impacted areas in 
the fall of 2017 to see firsthand the damage to affected 
schools. More than a dozen Department staff participated in the 
outreach efforts, informed initial cost estimates, developed 
legislative options, helped to prepare an official White House 
request to Congress for assistance, and technical assistance to 
Congress to help develop legislation.
    Secretary DeVos immediately made available financial 
assistance through the Department's Project Serve program which 
helps restore learning environments in affected areas. She 
provided grants of $2 million each to the United States Virgin 
Islands, Puerto Rico, Texas, and California with the goal of 
jump starting high priority relief efforts to supplement the 
forthcoming congressional action on comprehensive disaster 
recovery legislation.
    In early 2018, Congress provided $2.7 billion dollars to 
fund a comprehensive set of education-related disaster recovery 
programs, and the Department quickly moved to implement this 
appropriation. To date, we have awarded nearly $1.4 billion 
under five programs designed in this effort to make certain 
that people have the available funds to do the jobs that they 
must do in the world of recovery.
    I also personally visited Puerto Rico in the summer of 2018 
following my confirmation as Assistant Secretary, and by that 
time, students were already back in school. That didn't mean 
everything was back to normal. Many of the windows were still 
boarded up, many of the buildings were still without air 
conditioning, and many of the students were still homeless as 
well as staff members. Yet I refused to forget the smiling 
faces of those children. Despite their challenges, they are 
still children, always hopeful when it comes to their futures.
    Our team remains in regular contact with students and 
education leaders in affected areas. We created the Hurricane 
Help web page to make available key resources including 
information on the many flexibilities in using Federal taxpayer 
funds and various waivers made available. We provided funds to 
States like Florida and $2 million to States like California 
for the 2018 wildfires. And we are working to improve our 
ability to provide timely resources, high quality support, and 
appropriate oversight of Federal taxpayer funds with the 
creation in the Department of Education of a new disaster 
recovery unit. This new five-person team will be devoted full 
time to managing current and future disaster response efforts 
including the development of in-house expertise to leverage 
Department resources and partner effectively with other Federal 
agencies. Our goal remains to support students, their families, 
their teachers, and their communities affected by natural 
disasters.
    We thank you once again for providing us an opportunity to 
discuss this very important and, indeed, timely issue, and Mr. 
Chairman and Ranking Member, I do look forward to answering any 
questions that you all might have this morning.
    [The statement of Mr. Brogan follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
   
    
    Chairman Sablan. Thank you. Thank you very much, Secretary 
Brogan.
    Under committee rule 8(a), we will now question witnesses 
under the 5-minute rule. As chair, I have decided to go at the 
end, so I will yield to the next senior member on the majority 
side who will be followed by the ranking member. We will then 
alternate between the parties.
    And first, of course, Dr. Brogan, apparently you guys know 
each other. It will be Dr. Shalala, Representative of Florida.
    Ms. Shalala. Thank you, Mr. Chairman, and welcome, 
Assistant Secretary Brogan. We have been long-time friends and 
worked together in Florida over the years. The Secretary is 
lucky to have you.
    Mr. Brogan. Thank you.
    Ms. Shalala. Let me, I am particularly concerned, Secretary 
Brogan, about the delays in the restart funds to Puerto Rico 
and the U.S. Virgin Islands. Puerto Rican educators continue to 
report that they have not received those funds. Can you give us 
a sense of why they have been delayed and what you are able to 
do to make sure that they get those funds?
    Mr. Brogan. Yes. Thank you, Congresswoman, and, indeed, 
good to see you as well. And by the way, they are lucky to have 
you too. It is a pleasure to be with you and all of the 
members.
    And in answer to your question, of course, the process of 
moving the dollars made available by Congress to those who have 
been affected by natural disasters is very important, and it is 
also very important to expedite that effort.
    The reality in 2017 when we received that appropriation, it 
was before me, but nevertheless, it was received in February. 
And ultimately, in the months of March, April, and May, a 
significant amount of money immediately went out the door in 
terms of available dollars. Those dollars were determined based 
on need at the time but also based on the programs and the 
activities to which they would be directed.
    As you all know better than most, as far back as 2017, and 
even before that, certain categories of funding have been 
utilized in disaster recovery allocations after the total. That 
includes immediate aid to restart school operations. 
Congresswoman, that is restart, obviously. Temporary emergency 
impact aid for displaced students. Assistance for homeless 
children and youth is another. Project school emergency 
response to violence, those are those Serve grants that I 
mentioned a moment ago. And then in the world of higher 
education, defraying cost of the rolling displaced students 
program as well as emergency assistance to institutions of 
higher education.
    So we rapidly tried to take the total amount of money and 
then begin the issue of dividing that based on the applications 
that we received which is another part of this process and then 
the distribution by program that I mentioned here. I hope that 
helps a little bit.
    Ms. Shalala. Yes. Do you know how much Puerto Rico and the 
U.S. Virgin Islands each have drawn out of their restart funds 
to date?
    Mr. Brogan. Yes, ma'am. I can tell you, first of all, what 
the appropriation was for each and then a little bit more about 
drawdown. You mentioned V.I., Puerto Rico, and did you mention 
another one, Congresswoman?
    Ms. Shalala. No. Just Puerto Rico and the Virgin Islands.
    Mr. Brogan. Puerto Rico and V.I. Yes. For all of these, as 
I mentioned, the total impact provided by Congress was $2.7 
billion. As it relates to the drawdown, Puerto Rico out of that 
received for restart $589,170,000 along with other categories 
of funding including $70 million, $277,000, and then through 
Project Serve, $2 million.
    Out of that, then, the drawdown schedule which I also have, 
and if I don't have it right in front of me, we will absolutely 
get you that. And by the way, the drawdowns are posted on the 
FEMA website because we work with groups like FEMA to keep a 
running tab on not only the total allocations but how much each 
has been drawing down during that time period, and we will get 
that to you.
    But expeditious is the word that we try to look to when it 
comes to getting these dollars to the places that they need to 
go.
    Ms. Shalala. So you don't know exactly how much they have 
drawndown, Puerto Rico, for example, of the $589 million?
    Mr. Brogan. I do know this. I don't have a dollar figure, 
but it is about 5 percent at this point.
    Ms. Shalala. That has been drawndown?
    Mr. Brogan. That has been drawndown. And again, that is a 
snapshot in time. Even as we sit here, the drawdown process 
which is tied to actual expenditures is changing even while we 
are sitting here today.
    Ms. Shalala. Mr. Secretary, I know you well enough to know 
that if you were in charge of education in Puerto Rico, you 
would be pretty upset if you had only drawndown 5 percent of 
the money. Is there anything you can do to expedite it for 
Puerto Rico? This is a year and a half, 2 years after the 
events.
    Mr. Brogan. Thank you, Congresswoman. I am sorry. Yes. We 
work very hard with Puerto Rico, a tremendous amount of 
technical assistance and support, with the idea of being that 
the more they know, the better the opportunity they will have 
to more rapidly drawdown funds, work through the procurement 
process, and all of the things that can sometimes slow down the 
actual drawdown schedule of those funds.
    So even almost going on 2 years out, the procurement 
process that they work with is very complicated, very 
cumbersome, and, indeed, is part of the contribution to the 
process of turning available funds into drawdown funds which 
means they not only procured what they need, but they sent the 
money on.
    Chairman Sablan. Mr. Secretary, respectfully, members have 
to run at 10, so I appreciate that--
    Mr. Brogan. Understood.
    Chairman Sablan. The gentlelady's time has expired.
    I now recognize the ranking member, Mr. Allen, for purpose 
of questioning the witness.
    Mr. Allen. Thank you. And again, Assistant Secretary, thank 
you for being with us.
    In your testimony, you mentioned the creation of the 
disaster recovery unit. I have got a few questions about that. 
Now, your written statement said that the unit will have five 
full-time staff. What will their responsibilities be?
    Mr. Brogan. Yes, sir, Ranking Member. Many Federal agencies 
already have in place full-time, dedicated staff on the issue 
of disaster and disaster recoveries. We ultimately believe that 
based on the number of natural disasters being identified and 
the amount of available dollars flowing to them through 
Congress that it was time that the Department of Education also 
install a full-time, dedicated unit to be the nucleus of 
activities on these issues.
    There will be five people once we are fully staffed up, a 
person who will direct this operation and four others. They 
will help us to better coordinate with all of the other Federal 
agencies. They will help us to review our policies, processes, 
and procedures relative to how we handle natural disasters, and 
they will be an ongoing conduit to communication with people in 
the field based on both preparation as well as recovery efforts 
through technical assistance and support, and we are very 
excited about this.
    Mr. Allen. And how will this unit interact with the 
recovery support function leadership group that you also 
discussed in your opening statement?
    Mr. Brogan. Yes, sir. That, of course, is the work we do 
with FEMA. We already have regular and ongoing meetings with 
FEMA and the other agencies that FEMA works with in terms of 
disaster preparedness and also disaster recovery. There are 
regular monthly meetings.
    There are quarterly meetings of leadership. We will 
continue those, but by having this particular unit, it will 
give us an even better day-to-day conduit with not just FEMA 
but all of the other agencies in that case that work on 
disaster issues.
    Mr. Allen. In your statement, also you indicated that the 
Department has learned a number of lessons over the last couple 
of years and is taking steps to improve its response 
capabilities. I know that, you know, in Georgia we recently had 
the Hurricane Michael and, of course, this was not the 
Department of Education, it is through USDA, but the system 
that was used was not particularly user-friendly, very complex, 
a lot of compliance, and obviously we want to make sure that 
every dollar is spent where it is supposed to be spent.
    And presumably, one of these steps in the creation of the 
disaster recovery unit that we just discussed, what could you 
provide as far as more details about how the Department is 
otherwise improving its protocols to assist affected States and 
communities both before and after these natural disasters?
    Mr. Brogan. Ranking Member Allen and members, that question 
is a very important one as it relates to this group of 
individuals that I am speaking about in terms of the disaster 
recovery unit. The idea that everything that we have done is 
based on a historic track record of events and response, and 
yet, we are not satisfied that in every one of those cases, we 
are, as a Department, where we want to be to assure rapid 
response, rapid appropriation of funds made available by 
Congress, and ultimately the monitoring and review of how those 
funds are spent. It goes back a little bit to Congresswoman 
Shalala's question. And they will be an everyday, on the ground 
unit that will help support the effort of expediting in the 
future even better the work that we do.
    One quick shoutout to Congress. The fact that Congress 
essentially is using in each of these recent appropriations I 
rattled off the list of programs before that they have remained 
consistant up to and including this most recent round of 
funding that you all approved just the other day is enormously 
helpful so that we don't have to go back and reinvent wheels 
along the way in that regard. We won't have to rework that 
effort.
    So by working with Congress, by working with the other 
agencies, we are totally committed to continuing to review our 
process to assure that we cannot only expedite, but also as you 
mentioned, Ranking Member, be true to the fact that we are 
spending other people's money in that regard.
    Mr. Allen. Exactly. Well, thank you so much. And Mr. 
Chairman, I yield back.
    Chairman Sablan. Thank you very much to Mr. Allen.
    At this time I now recognize Mr. Morelle from New York.
    Mr. Morelle. Thank you, Mr. Chair, for holding this 
important hearing today to discuss the distressing effects of 
natural disasters on our communities and our schools, and thank 
you, Mr. Secretary for joining us today.
    The United States must do everything in its power to 
address the existential threat of climate change including 
mitigating the devastating impacts of natural disasters on our 
communities. It is undeniable that stability of our climate is 
deteriorating. Each year we see spikes in extreme weather 
patterns, rising sea levels, and increasing severe natural 
disasters that displace families, destroy properties and 
ecosystems, and even end lives. And we are experiencing 
unprecedented streaks of tornadoes ripping through the midwest, 
deadly wildfires in California, catastrophic hurricanes in the 
southeast and in the Caribbean, and dangerous flooding 
threatening more than 20 States.
    And the devastation that follows these natural disasters 
leaves communities struggling to rebuild and return to their 
daily lives, often never truly recovering.
    I want to talk just for a moment about my district of 
Rochester and the devastating effects of flood waters. In 2017, 
the district was hit hard by record flooding that eroded 
lakeshore, ruined family homes, crippled lakeside businesses, 
disrupted educational institutions. Nearly 2 years later, many 
community members are still struggling to recover, but the 
impacts of climate change don't wait around for us.
    In fact, just this week, Lake Ontario, where my district 
is, water levels hit a new record high. Yet again, the district 
is faced with the reality of rising flood levels exacerbated by 
strong winds and high waves which are expected to continue for 
several more weeks.
    So recognizing the negative effects of natural disasters on 
our educational systems; canceled bus routes, school closures, 
displaced communities, destroyed infrastructure, and 
traumatized children. And the stability that schools provides 
for a student is upended by natural disasters and can have 
substantial negative effects and impacts if the road to 
recovery is blocked by insufficient funds or lack of 
coordination.
    So planning for the future and improving the ability of our 
communities to withstand, recover, and adapt to weather-related 
events is a requirement, and requires us the willingness to 
face the facts that climate change is real despite what 
people--and people can argue endlessly about the impact our 
species has had on it, but it is folly to ignore the fact that 
this is happening and do everything in our power to curb global 
warming and protect the planet.
    I am particularly interested, Mr. Secretary, in preventive 
measures that we could take now to ready ourselves for the 
inevitable natural disasters which the natural disasters of 
tomorrow, and by tomorrow I mean literally, not necessarily 
figuratively.
    So recognizing all this, I am curious as to whether the 
Department actually talks to the National Weather Service or 
other associated agencies around modeling that they may be 
doing and what the threats are to school communities around the 
country. Do you do that? Do you know if the Department does 
that on a regular basis?
    Mr. Brogan. Yes, sir. I don't know how regular a basis, but 
the Department does participate again in all of the committee 
work that is done by FEMA with all of the different agencies, 
and of course, those kinds of issues, as you probably imagine, 
are discussed with great frequency.
    Mr. Morelle. Well, I am happy to hear that. And is the 
Department engaged in data gathering relative to tracking 
property damage and whether there are increased levels of it 
around the country? Do you work with local districts or States 
on that, and also, the number of days missed due to natural 
disasters? Have you been tracking that data?
    Mr. Brogan. We are, Congressman, tracking data relative to 
issues like that through the SEAs, the States themselves who 
are, in part, responsible for tracking that data for The Every 
Student Succeeds Act. For example, chronic absenteeism, days 
out, et cetera, are things that are currently tracked.
    Mr. Morelle. And things attributable to these natural 
disasters that they are talking about, do they categorize that, 
do you know?
    Mr. Brogan. Some of that, we are, but again, we hope that 
by standing up this full-time operation, we can do an even 
better job in the future of beginning to take longitudinal 
looks at more and more information.
    Mr. Morelle. That will be great. And to the degree that you 
could share that with us so we could know that data would be 
great.
    I am also interested. In my prior life in the State 
legislature, at one period I was a chair of the insurance 
committee, and we looked at ways to mitigate and resiliency 
prior to the impact of natural disasters, strengthening schools 
physically, emergency evacuation. Can you just describe in the 
remaining 20 seconds I have of my time, just give me an 
overview of what you are doing relative to communicating with 
States and districts about mitigation efforts?
    Mr. Brogan. Yes, sir. We do a tremendous amount of work 
through the various education associations, the meetings that 
they have to the State as well as the local level on 
preparation for, as most people who dealt with emergency 
situations realized, a great deal is determined in the 
preparation process as to how you are able to recover following 
the actual event, and we work very hard on those issues.
    Mr. Morelle. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Chairman Sablan. Thank you very much.
    At this time, I would like to recognize the ranking member 
of the full committee, the gentlelady from North Carolina, Dr. 
Foxx, for her 5 minutes of questioning.
    Ms. Foxx. Thank you, Mr. Chairman, and thank you, Secretary 
Brogan, for being here.
    It has been over a year since the first awards were made to 
areas impacted by the hurricanes and wildfires of 2017. I have 
a series of quick questions about these funds. Do you have data 
on how these funds are being spent?
    Mr. Brogan. Ranking Member, first of all, thank you for 
being here, and thank you for the question. But to all of the 
members, the answer to that is generally, yes. People are not 
required to put in a plan, per se, but everyone who received 
these dollars must put in a budget which is in some ways a 
skeletal structure of a plan, and those budgets are what we use 
to track expenditures and for what categories, et cetera.
    Ms. Foxx. Thank you. Are States able to drawdown funds and 
allocate them to schools effectively and efficiently, and if 
not, are there particular road blocks that are preventing funds 
from being used effectively?
    Mr. Brogan. Ranking Member, as you might imagine, and I am 
sure you do, in the direct aftermath of these events, sometimes 
it is rather chaotic, and therefore, it takes a little bit of 
time for people to settle back in and be able to take a serious 
step away to look at exactly what their needs are and how that 
can be done.
    That is part, by the way, of some of what some suggest is a 
delay in getting people their money. In order to fill out the 
application that they must, they have to be able to take a look 
at what they are doing and turn those needs into an application 
that we then use to build them their original allocation from 
what we received for Congress and then over time refine that 
with them for additional drawdowns.
    Ms. Foxx. All right. I gathered from what you were saying, 
although I am sorry I missed your opening statement, that the 
Department is the setting up full-time people who are going to 
work with this year around. So could you tell us what technical 
assistance or other support is the Department providing to 
particularly hard-hit areas to help them with procurement and 
contracting? I think you alluded to that earlier.
    Mr. Brogan. Ranking Member, in some cases, because 
procurement is typically handled at the local level 
appropriately, procurement, as I mentioned, can be one of those 
delay points in the process based on how complicated some 
procurement processes are. It doesn't make that process bad. It 
is theirs, and they must work through that in order to do it. 
What we can do is continue to provide technical assistance, and 
we will not only continue that, we will expand that with this 
new team to try to make it clearer when and where necessary as 
to how the procurement process at the local level and the needs 
that we have to be compliant come together more expeditiously 
to be able to move that into dollars available.
    Ms. Foxx. All right. Thank you again. The Department's past 
role in disaster relief has been fairly limited both in terms 
of the responsibilities your agency has taken on and the number 
and type of relief efforts the Department's been directly 
involved in. That seems to be changing, from your comments.
    As you ramp up the Department's disaster response efforts, 
how are you structuring those efforts to allow you to respond 
to these wildly different kinds of disasters such as 
hurricanes, typhoons, wildfires, all sometimes happening at the 
same time?
    Mr. Brogan. Ranking Member, I have here a list that I have 
for reference, but it contains all of the locations that were 
affected in 2017 when the BBA was originally created, the 
Bipartisan Act. The 2018 and the 2019, there are dozens of 
locations identified in congressional legislation from that 
2017 time until now. So to your good point, we have to be 
proactive and not wait to play catchup.
    One of the reasons we have established the DR unit is to 
make sure that we are trying to keep pace full time with the 
growing number of recognized natural disasters and dealing with 
the appropriations we receive from Congress so they will do 
most good.
    Ms. Foxx. Thank you very much.
    Mr. Chairman, I just want to note these are natural 
disasters. They are not things that we human beings can 
control, although I recognize there are things we should do our 
best to be able to respond to, but also it is my understanding 
FEMA and all of the Federal agencies are here simply to lend 
support to the local people. They are the ones on the ground 
year in, year out, and I think it is very important that we not 
hold unrealistic expectations to the Department of Education 
and other Federal departments for the responsibilities that are 
on the ground every day. Thank you, Mr. Chairman.
    Thank you, Mr. Brogan.
    Mr. Brogan. Thank you, Ranking Member.
    Chairman Sablan. I have huge respect for the ranking 
member, but maybe she and I can on our own time debate climate 
change.
    I would like to now recognize Mrs. Davis of California for 
5 minutes.
    Mrs. Davis. Thank you, Mr. Chairman, and Mr. Assistant 
Secretary. Very nice to have you here. I appreciate it.
    Mr. Brogan. Thank you Congresswoman.
    Mrs. Davis. I know that you had mentioned that they were 
only able to drawdown about 5 percent of those funds. We are 
talking about Puerto Rico now, I believe.
    Mr. Brogan. Yes.
    Mrs. Davis. And you have been at this for quite a while as 
well, and so I am wondering as you see this team taking a look 
at this and certainly the procurement process, and that has 
been mentioned on several occasions by both Ms. Shalala and Dr. 
Foxx, what do you think you are going to find that really could 
be done quite differently than it has in the past? What would 
you do?
    Mr. Brogan. Thank you, Congresswoman, for the question. And 
coming from California, you know a little bit about these 
issues as well, but I would answer that question this way. I 
think we are going to find some things over time in the 
Department that we can and should do differently, and at the 
risk of sounding like I am throwing it all back to the people 
at the State and local level, and believe me, I am not, we have 
to continue to work with people who have a huge amount of 
responsibility and also have to meet a huge number of 
obligations at the State and local level as well.
    So it is trying to bring those two things together to 
create a more seamless system of communication, of expectation, 
of obligation so that there aren't, as I mentioned earlier when 
it comes to procurement, as many hurdles for people to cross as 
we might face today. And I think all of us, and I herald here 
the people at the State and local level, are working toward 
that, and hopefully we will get even better at it in the 
future.
    Mrs. Davis. And I think part of it is trying to build that 
so-called resilience into the system so that people don't have 
to think about it.
    Mr. Brogan. Truly.
    Mrs. Davis. I remember after Katrina, we talked about, you 
know, the worst time to exchange business cards is in the 
middle of a disaster. I mean, you have to build that in, and 
you have to know what one's counterpart is it at different 
levels, and so in that regard as well, I wonder.
    You have talked about the 5 person team, but how about the 
so-called whole government approach as well? I mean, how many 
different agencies, beyond being on paper, are really engaged 
in problem solving in this area aggressively before disaster 
strikes? What are you seeing?
    And I guess the role--and I am just responding to my 
colleagues. I agree. I mean, you know, obviously the Federal 
Government cannot possibly be doing the job of the State and 
local governments, but they should be aware of best practices 
where, in fact, there has been a seamless adjustment in 
communities that have been so devastated by these disasters.
    Mr. Brogan. I could not have said it better, Congresswoman. 
And I just had a conversation with folks at FEMA the other day, 
and they were expressing appreciation. We just did a 
presentation for not just FEMA but for, as I mentioned, the 
group that FEMA brings together on a regular basis in terms of 
some of the things that we in education have to deal with on 
our side of the issues, and they found it to be extraordinarily 
helpful.
    We need to keep doing more of that as we continue to 
communicate with the people in the field so that we can find 
voids or find redundancies that also create inefficiency at the 
same time. So a lot of it, as corny as it might sound, really 
falls under the aegis of continued and even better 
communication by everyone as we move forward.
    But I go back long enough, along with Congresswoman Shalala 
to remember Andrew in south Florida when I lived there. And I 
have to tell you. We are already back, way back, to some of 
those natural disasters and others in terms of lessons learned. 
We should not be repeating mistakes of the past.
    Mrs. Davis. Yes. Of course, and I appreciate that. One of 
the real issues, of course, is where young people, even 
preschool age and earlier, can be housed during the horrible 
crisis that they are living through. And I am wondering about 
the role of the Federal Government as well when it comes to 
finding the facilities, the resources in neighboring 
communities, and in some cases, as you know, far, far away from 
a disaster because they are not in areas that are intensely 
urban and that there are lots of choices for where people might 
go. So what is the role in that regard?
    Mr. Brogan. Indeed, and you mentioned it earlier, 
Congresswoman. Technically speaking, every Federal agency has 
the potential to be involved in disaster preparation and 
disaster recovery. As you might imagine as well being here in 
D.C., some of the agencies are more front and center on the 
issue just based on what they do.
    So when we meet with FEMA, for example, we are also sitting 
around the table with HHS, obviously. We are meeting with DOJ 
based on the laws. We are meeting with Federal agencies like 
HUD that have a clear and distinct role. But technically 
speaking, the Federal Government is an open book when it comes 
to the potential of helping to support these--
    Chairman Sablan. Mr. Secretary--
    Mrs. Davis. Thank you very much.
    Mr. Brogan. Thank you, Congresswoman.
    Chairman Sablan. The gentlelady's time has expired.
    Mr. Taylor of Texas.
    Mr. Taylor. Thank you, Mr. Chairman. Secretary, I 
appreciate you being here.
    So in the Texas legislature, I was on the Education 
Committee, and one of the things that we dealt with was 
schedule, right. So some scheduling is done at the State level. 
Testing requirements. One of the things that we did is we 
actually moved from a 180-day, 7-hour day schedule to give me a 
number of minutes. I think it is 73,000 minutes. That actually 
gave school districts flexibility to move time around. So when 
you had a disaster, and this does happen in Texas, you know, 
people are able to actually shift their schedule around and 
actually lengthen school days and minimize the extension of the 
school year.
    Are there Federal laws, you know, whether it is testing 
requirements that cause scheduling issues that you are finding 
are getting in your way?
    Mr. Brogan. Yes, sir. I can tell you this. We have taken, 
for example, the Every Student Succeeds Act and gone through 
that to make certain that it jives as well as can be expected 
with what kinds of flexibilities are included in that act that 
can be utilized, not just in general through waiver process, 
but as well in post natural disaster situations.
    The timing of testing is a good example for that. It is 
possible under ESSA to move the time that the test was 
scheduled if that helps the situation, to delay it further in 
the cue to be able to get people settled in before the test is 
issued for one small example, and there are other possibilities 
for flexibility.
    But we are actually learning a great deal from States like 
yours, Congressman Taylor, in terms of what additional 
flexibilities, still compliant with the ESSA law, but 
nevertheless, might give people other opportunities that they 
currently don't have for the future. And of course, if any of 
those require legislative authority, we would quickly turn to 
you all and ask for help and support as you are always ready to 
give.
    Mr. Taylor. So what I think I heard is we have the 
flexibility we need, and if we think we need more, we will come 
back and ask.
    Mr. Brogan. We have all the flexibility we have. Whether it 
is enough, we will be determining over time with the help and 
assistance, especially of the people out there in the field.
    Mr. Taylor. Sure.
    Mr. Brogan. They are the ones we listen to as to the 
impacts of all these things in terms of making any possible 
changes we might find necessary.
    Mr. Taylor. Right. But what I think I heard you say is, you 
know, a tornado comes, takes out a school. They are not in 
school for a month. They need to push their tests back a month 
because the schedule is written as though nothing would ever 
happen, but things happen. So you are saying you can push it 
back?
    Mr. Brogan. Congressman--yes. The way that testing is 
approached is each one individual as far as waivers are 
concerned, and what is looked at is the time of the year of the 
event as it relates to the testing schedule, the size of the 
event, if you will, and other factors that determine what 
possibilities there might be to work around the natural 
disaster to do what still has to be done according to the Every 
Student Succeeds Act.
    But greater flexibility in that regard is never a 
destination point because we are always looking for different 
ways to achieve that.
    Mr. Taylor. And again, I just want to be sure. So as far as 
you can tell time now, you have the flexibility you need.
    Mr. Brogan. For now, yes, sir.
    Mr. Taylor. Okay. All right. I think it answered that. 
Anything else you want to add?
    Mr. Brogan. No, sir, unless there are any other questions 
you have.
    Mr. Taylor. Thank you, Mr. Secretary.
    Mr. Chairman, I yield back.
    Chairman Sablan. Thank you. The gentleman yields back.
    At this time, I would like to recognize the chairman of the 
full committee, Mr. Scott, of Virginia.
    Mr. Scott. Thank you, and Mr. Secretary, thank you for 
being with us today.
    I want to follow through on the question just asked because 
a lot of the discussion has been on the budget and allocation 
of money and whatnot. But the effect on students--obviously, 
the students were out of school for some time. Are they back in 
school, and what has the school experience been like for them?
    Mr. Brogan. Thank you, Mr. Chairman. It is good to see you.
    Generally speaking, students are back in school from 
previous disasters, but as you know, again, better than most, 
there are disasters unfolding as we are seated here today. And 
by virtue of the fact that those disasters are playing out, 
there are currently no doubt students who are not in school. 
The idea of preparation for these events and then recovery for 
these events always keeps in mind the importance of reopening 
schools as they have been closed but also keeping them open, if 
it is possible, in the preparatory way to make certain that 
young people have a place to go every single day.
    Chronic absenteeism in general can be a problem, just 
students missing school, but anything that we can do to bring 
down the time that students miss school as it relates to the 
effects of a natural disaster is critical to us.
    Mr. Scott. Well, can you say a word about the effect of 
these disasters on school achievement for the students?
    Mr. Brogan. Yes, sir. I will answer you this way, if I 
might. One of the things we do look at in the Every Student 
Succeeds Act, of course, is how people are faring in general 
based on the tempos that lie within that act. We look at not 
only general testing and results as they post up against State 
standards, but we also look at some of the subgroups that are 
laid out in ESSA to see how individual subgroups of students 
are faring at the same time. And we look at those with each 
State as a partner to determine just how students are looking 
generally.
    Over time, what we would like to do is also be able to 
begin to look at how students might be, through appropriate 
research efforts, not just anecdotal, to see if natural 
disasters are having sizable impacts on student achievement as 
demonstrated through what is made responsible of them through 
the ESSA act.
    Mr. Scott. Well, I guess my question is when you looked, 
what did you see?
    Mr. Brogan. Well, we aren't looking that way just yet. That 
is what I say. I think as we get better developed with how we 
respond to these things, and as we look toward the research 
community to assist us, among other things, those are some of 
things that we do want to begin to look at is not just the 
recovery effort itself but also, as you mentioned, the recovery 
and the impact that it has on teaching and learning.
    Mr. Scott. Well, we need to get that information as soon as 
possible because it is possible that some of these students may 
have regressed and are not learning at the rate they should be, 
and we may need additional resources to correct that, but we 
won't know until we get--
    Mr. Brogan. Yes, sir.
    Mr. Scott [continuing]. the data. Before coming to the 
Education Department, you were an official, as we heard, in 
Florida, a State that is particularly vulnerable to the effects 
of man-made climate change. What did Florida do to prepare for 
anticipated changes due to climate change like increased risk 
of hurricane and flooding as it relates to school operations?
    Mr. Brogan. Thank you, Mr. Chairman. I can say, rather 
proudly, that Florida is considered to be one of the leaders in 
the country in terms of preparation and recovery efforts when 
it comes to natural disasters. And by virtue of that fact, I 
was really proud to work with the men and women of Florida in 
terms of both efforts, how we better prepare as a State for 
those that are occurring and have occurred and how we deal with 
those that do occur.
    As you might imagine, I saw my share of hurricanes, for 
example, during my 35 years in the State of Florida, and 
Florida essentially, if you ask them, they will probably answer 
the same way I do here about the Department of Education. We 
are constantly looking for ways, no matter how good we think we 
are, to be even better going forward in the future. And with 
the number--as I mentioned earlier, Mr. Chairman, with the 
number of events and the number of States and territories 
impacted, our obligation is increasing as a Department along 
with the other Federal agencies in that regard.
    Mr. Scott. I don't have time for you to answer this with 
the time I have left, but the National Climate Assessment 
released by the Trump administration warned that climate change 
is going to impact--have an increasing impact on losses to 
American infrastructure and property. They also advise that 
substantial and sustained global efforts to reduce greenhouse 
gas emissions could help reverse that.
    If you could provide for the record what the Department is 
doing to deal with the effects of--reducing the effects of 
climate change, I would appreciate it. My time has expired, so 
I would like that for the record.
    Mr. Brogan. Thank you, Mr. Chairman.
    Chairman Sablan. Thank you. Thank you very much.
    Now I would like to recognize Mr. Grothman for 5 minutes.
    Mr. Grothman. Thank you. When you deal with things like 
hurricanes or the recent disaster bill, how much of that do you 
just get involved in, say, construction, that sort of thing?
    Mr. Brogan. Congressman, it is good to see you.
    Mr. Grothman. Good to see you, too.
    Mr. Brogan. Thank you.
    In answer to your question, when it comes to actual 
construction, we may be involved in small rapid turnaround for 
some recovery efforts, but largely those would be determined 
with the available funds you provide to us for things like some 
remodeling on a quick turnaround basis. Major construction or 
even major reconstruction efforts, of course, is left to FEMA.
    Mr. Grothman. Okay. So are you involved a lot in putting 
children in different places, that sort of thing, so they don't 
miss class?
    Mr. Brogan. Yes, sir. We would be involved in things like, 
just for some examples, replacement of textbooks. That is very 
typical. Replacement of technology that is lost as a result of 
natural disasters.
    Mr. Grothman. Okay. I guess primarily we talk about 
naturally disasters here, we are talking about hurricanes, 
right, usually?
    Mr. Brogan. Those are the big ones, not alone, but those 
are the big ones.
    Mr. Grothman. Right. Could you describe the difference 
between the Federal Government would be involved in a 
hurricane, say, in this decade and, say, in the 1960's or 
1970's when we had some big hurricanes?
    Mr. Brogan. The difference between now and then in terms of 
the Federal response?
    Mr. Grothman. Right. The degree to which the Department--I 
guess the Department of Education wasn't even around until the 
late 1970's.
    Mr. Brogan. I can tell you, Congressman, if I can, just 
anecdotally, that just after 35 years in Florida in a variety 
of different public service capacities, we are getting better 
and better as a Nation in helping to deal with the preparation 
for, very important, and the aftermath of natural disasters, 
whether they are hurricanes, wildfires, tornadoes, volcanoes. 
And not only in part because we have to, but also because 
people are communicating better.
    And I think Congress is another good example. Your 
responses to these things have no doubt changed very much over 
a long period of years for the better as well.
    Mr. Grothman. If we are always willing to collectively give 
in more money, I guess. I have noticed that in the few years 
that I have been here.
    Mr. Brogan. Thank you, sir.
    Mr. Grothman. Could you describe ways that we are doing 
things differently today? I don't know how familiar you are 
with how we handled things in the 1990's or the 1980's or such. 
But could you give me examples of things that have changed?
    Mr. Brogan. Yes. Thank you, Congressman.
    I think we are doing a better job collectively of 
preparation. I think in the early days, perhaps, whatever that 
means, we spent most of our time and energy on recovery. That 
is still necessary.
    But I think we as a Nation are doing much more and a much 
better job of dealing with how we deal with a natural disaster 
when one befalls us as opposed to just how we will recover once 
we have to deal with one, and I think that has made a major 
difference.
    Mr. Grothman. Can you give me examples, some examples?
    Mr. Brogan. Sure. I go back to the group that FEMA has 
where we talk at the Federal level, all the agencies, on a very 
regular basis. And a part of those conversations is dedicated 
to preparation, training of people at the local level, 
providing onsite review of schools, for example, that can 
identify ways that individual school can better prepare itself 
in the event of a natural disaster.
    Those kinds of things are not only discussed regularly, but 
technical assistance, support, whole websites are set up 
through the Federal agencies to be able to make available to 
people specific recommendations as to how to better prepare for 
the future.
    Mr. Grothman. So even beforehand, local school districts in 
Florida are attending a seminar or something or other saying, 
if we have a hurricane this year, this is what we are going to 
do?
    Mr. Brogan. Yes, sir.
    Mr. Grothman. Okay.
    I'll yield the remainder of my time.
    Mr. Brogan. Thank you, Congressman.
    Chairman Sablan. Thank you very much. I appreciate that.
    At this time, I would like to recognize Mrs. Hayes of 
Connecticut for her 5 minutes.
    Mrs. Hayes. Thank you, Mr. Chair.
    And thank you, Assistant Secretary Brogan, for being here.
    I also want to talk about what happens after, as part of 
the recovery efforts. I have some very personal experience as 
far as dealing with students after a disaster in my first years 
of teaching. It was right after Katrina. And we welcomed 
students from the State of Louisiana into our school system not 
really knowing where they were in the academic spectrum, not 
knowing how long they would be there, and saw their families 
dealing with trauma.
    More recently, after Hurricane Maria, my State welcomed 
over 2,000 students. My district, in the district that I now 
represent, two of the cities, Waterbury and New Britain, 
welcomed more students than any other community. This increased 
our bilingual education population. Where would we house these 
students? How do we hire new teachers to accommodate these new 
students? All of these things were questions that we had to 
ask.
    And I guess what I am thinking about is, I saw the 
phenomenon that flourished after Hurricane Katrina, and that 
was charter schools, where regulations were loosened and, in an 
effort to reopen all these schools, charters that were run by 
dozens of different independent operators were opened.
    I recently ran into a parent who, literally, from one of 
these communities, I was at an education summit, and she talked 
about how before Katrina her kids went to the same school. 
After, the school could no longer accommodate her son with 
special needs, and a year later it closed, another school moved 
in, and there were some serious problems.
    So I am concerned that the pattern that we saw in Katrina 
will now be duplicated. And my concern comes partly from a 
statement that you made that, and I quote, you Stated that 
Puerto Rico would become a beacon of school choice in the wake 
of Hurricane Maria and the Department would work side by side 
with the Puerto Rico Department of Education to achieve that 
goal.
    It's not a beacon of light. I saw teachers struggled to get 
recertified, couldn't get their proper credentials once their 
community was affected by a disaster, just all kinds of things. 
And I sit here today in Congress, but I have spent most of my 
time on the ground, so I have been on the receiving end of 
this, you know.
    So my question is, what exactly has been the role of the 
Department in this new reform? Or has the Department in any way 
sought to promulgate school choice further in Puerto Rico post-
Maria?
    Mr. Brogan. In terms of recovery efforts--
    Mrs. Hayes. Yes.
    Mr. Brogan. Congresswoman?
    Mr. Brogan. The technical assistance and support we provide 
on the issue of school choice is ongoing irregardless. It was 
there before the storms and continues, separating the issue of 
recovery from the issue of school choice. But there have been 
no attempts to ramp up those efforts or alter those efforts as 
a tool to deal with the recovery efforts, if that answers your 
question.
    Mrs. Hayes. So there is no attempt to promote it further in 
Puerto Rico or replace the public system with a charter-
specific system?
    Mr. Brogan. No more or less than before the natural 
disaster events.
    As you know, the infrastructure in Puerto Rico before the 
storms was facing great difficulty. That includes loss of 
students before the storms. That includes facilities, 
classrooms, school buildings that needed refurbishment or even 
replacement before the storms.
    The storms, of course, grotesquely exacerbated the problems 
that in many cases Puerto Rico was already facing.
    Mrs. Hayes. Just to leave you with something. As you 
continue to talk about how you prepare for storms, I can tell 
you that one of the main challenges that I saw was access to 
student records. Even when teachers went to get certified in 
another State, in Puerto Rico what I saw, people who had gone 
to the University of Puerto Rico could not access any of their 
academic data, so therefore they could not pursue certification 
in another State. That was a huge problem outside of what we 
see on the ground.
    So part of the gap in transitioning students was not having 
access to the information that we needed to either properly 
place them. So, literally, even though they were attending 
schools or onsite, they were not receiving the academic 
education that they needed because we weren't sure what to do 
with them. So they were just, in essence, being housed, 
sometimes for several weeks, while we were trying to close the 
gap on that lag.
    So, I mean, you can't really prepare for that. But just as 
you are thinking through next steps, that is something that 
really we need to have a more proactive plan to address.
    Mr. Brogan. Thank you, Congresswoman. It is good to see 
you, by the way.
    Chairman Sablan. The gentlelady's time has expired.
    I think we actually have time for Mr. Thompson of 
Pennsylvania, GT, 5 minutes.
    Mr. Thompson. Chairman, thank you so much.
    Chancellor, great to see you. Congratulations just on your 
continued service to our kids, everything you have done in 
Pennsylvania and Florida and now nationwide. You're greatly 
appreciated.
    My first question really has to do with--and I appreciate 
you being here today to talk about the issue.
    I know that the Elementary and Secondary Education Act 
broadly requires Project SERV funds to be awarded to entities 
where the learning environment has been disrupted, but could 
you explain in more detail the criteria or criterion that the 
Department uses to determine where Project SERV funds are 
awarded and how much an entity receives?
    Mr. Brogan. Yes, sir. And this can become very 
bureaucratic, so I won't try go there, but I will try very hard 
to answer your question. It is good to see you, too, again, 
Congressman.
    Project SERV comes from the Congress. It was made available 
some years ago for what is considered to be availability of 
flexibility and rapid response in the aftermath of acts of 
trauma, violence, or as become a part of this natural disaster.
    It requires an application from the people at the local 
level, and then, based on that application, there are three 
ways to receive money. One is that you can apply for a grant 
for 6 months, which could be up to $50,000. One is for a 
longer, larger grant of up to 18 months for immediate need 
based on a restoration to an appropriate learning environment 
that can be up to $250,000 for that 18-month period.
    But as the natural disasters have continued to grow, and 
some up on the dais are aware of this, larger awards are being 
made by the Secretary, in this case for 2017 and some for 2018, 
for immediate response that go as high as $1 million to $2 
million based on the available Project SERV funds that we have.
    Mr. Thompson. Thank you for that.
    And I know, I mean, we have seen such catastrophic 
disasters--hurricanes, flooding, wildfires out in the western 
parts of the State. So the question I have is actually kind of 
on a smaller scale. Where a lot of the country is getting 
drier, we, Pennsylvania, is getting wetter. And where we are 
not really having flooding as much, the groundwater is so full 
that we have had some schools that have been closed because of 
mold. And it is not a fault of the school districts and the 
maintenance crew. They are doing great stuff. It is just a 
combination of all that water soaking into the water table.
    And so we have had schools close from time to time, mostly, 
obviously, short-term, I think. I am not aware of anyone that 
has been closed long-term. But is that the kind of thing that 
perhaps a school district could, and therefore those kids who 
are being relocated, perhaps when it lasts longer than other 
times, is that the kind of thing that would maybe under 
consideration for assistance for a temporary relocation for 
education purposes?
    Mr. Brogan. It could be. As a matter of fact, we know that 
when it comes to some of our more remote locations--
territories, Commonwealths, et cetera--people have used some of 
those Project SERV dollars to lease alternative space when 
their entire facility was rendered useless as a result of a 
typhoon, for example, and that Project SERV money had that kind 
of flexibility attached to it.
    It is always subject to the available sum of money we have 
for Project SERV. And sometimes, as we have done recently to 
get through the rest of this fiscal year, we can cap the awards 
for everybody, just to make sure that if we get deeper into the 
Fiscal Year and something happens, we have available funds. But 
it is a very flexible pot of money that Congress has provided 
us.
    Mr. Thompson. Yes. And I certainly recognize the 
catastrophic issues that we have had, entire schools being lost 
and the impact.
    Thank you for that clarification. It is good to see you 
again.
    I yield back.
    Mr. Brogan. Good to see you again, sir.
    Chairman Sablan. Thank you very much, Mr. Thompson.
    Votes have been called now, but Mr. Allen has agreed to 
come back after for the second panel.
    But, Mr. Brogan, I recognize myself for 5 minutes.
    Mr. Secretary, do you agree with the findings of the Trump 
administration's National Climate Assessment that man-made 
climate change is causing grave damage to our country and must 
be reversed?
    Mr. Brogan. Mr. Chairman, as you might expect, I and others 
regularly get questions about climate change, especially doing 
the kinds of jobs that we do. And my answer, and believe me, it 
is not meant to be glib, it's honest. I think, like most, 
recognize the changes that are taking place in climate.
    But I admit, I have been in education for 40 years, but I 
am not a scientist, and the direct result of all of that, I 
couldn't tell you about. We rely on a lot of other people in 
that regard.
    But I do know this, and I tell my 14-year-old son this 
regularly, we, each of us, has to be a responsible steward of 
our little slice of the planet on which we live.
    Chairman Sablan. Yes, sir. We only have one, and we all 
have to share it. But in your position, I need to ask, how is 
the Department of Education contributing to efforts to combat 
climate change?
    Mr. Brogan. Well, as you might imagine, we work on the 
education front. So largely the vast majority of work that we 
do, we do with schools, with teachers, and with children.
    And I can then on the flip side tell you that all over the 
country our educational community continues to talk about 
climate, about being good stewards, as it relates to our 
students, of the world environment and making sure that they 
each, all 50 million of them, are responsible stewards in their 
own way. And that effort, I think it is safe to say, goes on 
essentially every day in America's schools, public and private.
    Chairman Sablan. Thank you. Thank you. Mr. Brogan. I have 
other questions.
    Mr. Secretary, again, in the disaster aid relief package 
that passed 2 days ago, on Monday, $165 million is included to 
go to the Department of Education to distribute for school 
recovery along with wide latitude to the Secretary to do so.
    What I want to know is, how does the Department plan to use 
that funding in the next 90 days before the new school year 
starts? Could you tell us how the Department will provide 
timely and effective assistance to all affected areas, please?
    Mr. Brogan. Yes, sir, Mr. Chairman.
    We will, of course, continue to respond to immediate needs, 
as we have in the past--you had mentioned Project SERV before--
whenever and wherever necessary and possible.
    But even beyond that, the legislation that passed also 
includes a responsibility that we develop within the 
Department, within the next 30 days following the signing of 
that legislation, a spending plan for the dollars that have 
been provided by Congress and that Congress will have 
availability of that spending plan after that 30-day period of 
time.
    And then, as always, we are responsible for providing 
reports on a regular basis as to how dollars are flowing and 
being drawndown.
    Chairman Sablan. Thank you.
    You also stated in your testimony that the Department 
created a Disaster Recovery Unit, DRU, manned by a director and 
three support staff, housed within the Office of Elementary and 
Secondary Education, devoted full time to managing the 
Department's disaster response efforts and help the Department 
partner more effectively with Congress.
    What I would like to know is, prior to the creation of DRU, 
how many full-time employees were dedicated to assisting 
schools with disaster response efforts and partnering with 
Congress? And what has DRU done to date to assist schools in 
California, the Marianas, Puerto Rico, and the Virgin Islands?
    Mr. Brogan. Thank you, Mr. Chairman.
    In answer to the question, let me parse it out a little bit 
by way of response.
    In the Department no one has been devoted thus far 100 
percent to the issue of natural disasters. We have many people 
who have fulfilled that role in part across not only the Office 
of Elementary and Secondary, but across the Department. This 
will be our first-time effort into organizing around a group of 
people who will have that responsibility 24/7.
    In that regard, however, we recently did a check to see how 
many people hours have been invested recently in the natural 
disaster work based on all of the people involved, through 
technical assistance and support preparation, et cetera. I 
think we stopped counting at 20,000 people hours.
    So everybody in our Department in some way, shape, or form 
has the potential to be involved in this process, and with the 
development of a full-time unit, they can help us better 
coordinate even those activities.
    Chairman Sablan. Mr. Secretary, my time is up. Thank you 
very much. And thank you for joining us today, Mr. Secretary.
    Mr. Brogan. My pleasure.
    Chairman Sablan. Good to see you.
    Mr. Brogan. My pleasure, sir.
    Chairman Sablan. We are going to take a recess now so 
members can run and cast, I think there are four votes--oh, 
one. One. Okay. I think we will have quorum once they are done 
with voting, so we will have time for the second panel. Be 
patient.
    [Recess.]
    Chairman Sablan. Just before we recessed, I would like to 
state something for the record. I want to remind my colleagues 
that, pursuant to committee practice, materials for submission 
for the hearing record must be submitted to the committee clerk 
within 14 days following the last day of the hearing, 
preferably in Microsoft Word format.
    The material submitted must address the subject matter of 
the hearing. And only a member of a committee or an invited 
witness may submit test materials for inclusion in the hearing 
record.
    Documents are limited to 50 pages each. Documents longer 
than 50 pages will be incorporated into the record via an 
internet link you must provide to the committee clerk within 
the required timeframe. But please recognize that years from 
now that link may no longer work.
    The ranking member, Mr. Allen, is here joining us. And I 
would now begin by introducing our witnesses for the second 
panel.
    Mr. Glenn Muna, the Commissioner of Education for the 
Northern Mariana Islands, is a former elementary school 
principal--I remember I used to visit his school--and was 
appointed Associated Education Commissioner in 2012, an interim 
Commissioner for Education in 2017, before becoming the 
Commissioner of Education in 2018. Mr. Muna holds a B.A. in 
Health Education from Western Oregon University and a Master's 
of Art and teaching from Framingham State College.
    Ms. Rosa Soto-Thomas is a native of St. Croix and has been 
the president of the St. Croix Federation of Teachers since 
2012. She is the first woman to be elected president of Local 
1826.
    Ms. Soto-Thomas began her career as a teacher and served as 
a school psychologist for 23 years. She is an advocate for 
community engagement and has led the union to partner with 
numerous agencies in the community.
    Ms. Soto-Thomas holds a B.A. degree in Elementary Education 
from the University of the Virgin Islands and a Master of Arts 
degree in School Psychology from the University of Connecticut 
at Storrs.
    Mr. Winn, Mr. John Winn, was an educator for 45 years. He 
began his career as an elementary and middle school teacher in 
1970. After serving as a teacher, educator, and grants manager 
for rural school districts, he joined the Florida Department of 
Education in 1984. He served in several positions before being 
appointed to Commissioner of Education in August 2004. During 
his tenure as commissioner, student achievement in Florida 
reached an all-time high.
    In 2007 he retired as Commissioner of Education and joined 
the National Math and Science Initiative. There, he directed 
the national replication of proven programs to prepare STEM 
teachers and dramatically expand student enrollment and success 
in advanced mathematics and science courses, especially among 
disadvantaged students.
    My commissioner is here. I am just saying this so maybe he 
could consider inviting you to the Northern Marianas as well.
    Finally, Dr. Steven Herrington--welcome--was elected Sonoma 
County superintendent of schools in 2010 and has over 40 years 
of service in the field of education. He is a native 
Californian who began his career as a history teacher.
    He served as superintendent for three Northern California 
school districts. In these positions he gained experience in 
rural, suburban, and urban settings. He has led educational 
services for students from pre-kindergarten through high 
school.
    Again, I would like to give instructions for the witnesses. 
I will give the abbreviated version of instruction to the 
witnesses. As a reminder, you are asked to limit your oral 
presentation to a 5-minute summary of your written statement.
    It is illegal to knowingly and willfully falsify any 
statement, representation, writing, document, or material fact 
presented to Congress or otherwise conceal or cover up a 
material fact.
    Before you begin your testimony, please remember to press 
the button on the microphone in front of you so that it will 
turn on and the members can hear you. The light in front of you 
will turn green. After 4 minutes the light will turn yellow to 
signal that you have 1 more minute. When the light turns red, 
we ask that you please wrap up.
    We will let the entire panel make their presentations 
before we move to member questions. When answering a question, 
please remember to once again turn your microphone on.
    I will first recognize Commissioner Muna for his 5 minutes. 
Thank you.

 STATEMENT OF MR. GLENN MUNA, COMMISSIONER, CNMI PUBLIC SCHOOL 
                       SYSTEM, SAIPAN, MP

    Mr. Muna. Chairman Sablan, Ranking Member Allen, and 
members of the committee, hafa adai, tirow, and thank you for 
the opportunity to share our experiences from the Commonwealth 
of the Northern Marianas as we work together to recover after 
the devastation of a Super typhoon 7 months ago.
    Super Typhoon Yutu hit the CNMI on October 24, 2018, with 
sustained winds in excess of 200 miles per hour. The 20-mile-
wide eye of Yutu passed over the islands of Tinian and Saipan. 
It used to be in the last 3 years we were hit by a super 
typhoon
    Climate change is happening and it matters that we act 
immediately. The Federal Government should act to slow and 
reverse our human impact on our environment. If we don't, we 
first risk losing beautiful islands like ours.
    The frequency of super typhoon and their increased size and 
sustained wind forces require a change in how we build our 
schools, how we build our homes, our airports, and our 
seaports. They must be built sustainably and in an economically 
responsible manner so that we do not have to continue to start 
anew each time a new disaster occurs.
    Out of 20 public schools in the CNMI, over half were 
damaged by the typhoon. We have five schools that require major 
repairs, such as rewiring, reroofing, replacement of doors, 
windows, air-conditioner repairs and replacement, loss of 
computers, textbooks, student chairs, and tables.
    Our largest middle school, Hopwood, is conducting classes 
in 42 tents because it is completely destroyed. The tents, 
which resemble a military camp, are a temporary solution but 
could totally be blown away by the next typhoon.
    What we need are reinforced concrete schools that can 
withstand sustained super typhoon winds in excess of 200 miles 
per hour. The estimated cost to build a new Hopwood is roughly 
about $40 million.
    Another school, Da'Ok Academy, is housed temporarily in a 
tin building while we await reconstruction or relocation of 
those students.
    Seven months after the storm, we still have five schools 
operating in double sessions. Double session means students 
attend school for the first half of the day and the other set 
of students may use the same building for the second half of 
the day. This is especially difficult for working families who 
need to figure out who will watch their children and for the 
other half of the day.
    Double sessions also means double driving for our school 
bus drivers, which results in more school bus downtime for 
repairs and students arriving late to school and late to return 
to their homes.
    The CNMI Public School System spent $1.8 million on 
clearing debris from 18 schools and 8 Head Start centers on 
Tinian and Saipan and in caring for families using schools as 
shelters before, during, and after the typhoon.
    We estimate about $24 million to be received from FEMA to 
restore broken classroom buildings at Hopwood Middle School to 
their previous condition, which means tin roof buildings. Let's 
remember that we lost tin roofs on most of the school buildings 
during Super Typhoon Yutu. Tin roof buildings are not 
sustainable in super typhoon conditions.
    To date, we have received reimbursement from FEMA of just 
over $750,000.
    In addition, we have estimated about $60 million in repairs 
to be made at our schools, but are still waiting final approval 
of project worksheets from FEMA. We have our estimates. These 
repairs cannot be made until FEMA approves the project 
worksheets.
    Tourism is our Commonwealth's main industry, with over 
550,000 visitors each year. Our airports were closed to 
commercial traffic for over a month after the typhoon and 
tourist arrivals are off by 40 percent since the beginning of 
this calendar, according to Marianas Visitor Authority, which 
tracks arrivals each month and hotel room occupancy and room 
rates. This drop in tourism has a big impact on the amount of 
funds currently available to support public education in the 
CNMI this fiscal year and next fiscal year.
    As a result of decreased local revenues, we are now taking 
about 15 percent budget cut this year as well as next fiscal 
year. This on top of the fact that we still do not have the 
Federal funds to make necessary school infrastructure repairs.
    We urgently need disaster relief funds from FEMA and the 
Community Development Block Grant Disaster Relief Fund so that 
we can make school repairs in the summer when school is out of 
session beginning this June through August, with a reopening of 
September 3.
    We need a faster response from our FEMA Federal partners, 
FEMA and CDBG-DR. We were able to secure a Project SERV grant 
of $1.1 million a month after the storm from the U.S. 
Department of Education.
    The Project SERV grant pays for grief counselors for our 
students and teachers who have suffered losses as a result of 
Super Typhoon Yutu, overtime for our bus drivers who are 
working double sessions, substitute teachers to replace 
teachers who left the island after the devastation of Yutu, and 
rental space for our school, Da'Ok Academy.
    Project SERV has been a big and timely help, yet 7 months 
have come and gone and we are still waiting for our FEMA cost 
estimates and approved project worksheets for school repairs.
    [The statement of Mr. Muna follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Chairman Sablan. Commissioner, thank you. Your full 
testimony will be entered into the record. Thank you very much.
    Mr. Muna. Thank you.
    Chairman Sablan. I now recognize Ms. Soto-Thomas for 5 
minutes.

    STATEMENT OF MS. ROSA SOTO-THOMAS, PRESIDENT, ST. CROIX 
 FEDERATION OF TEACHERS AFT LOCAL 1826, KINGSHILL, ST. CROIX, 
                              V.I.

    Ms. Soto-Thomas. Thank you. Good morning, Mr. Sablan and 
other members of this subcommittee.
    My name is Rosa Soto-Thomas. I am the president of the St. 
Croix Federation of Teachers. I represent teachers, 
paraprofessionals, and support staff, and we serve 
approximately 10,000 students attending two high schools, three 
junior high schools, and eight elementary schools.
    On September 19, 2017, Hurricane Maria ravaged the island 
of St. Croix, causing significant damage to our infrastructure. 
Many citizens lost or suffered severe damage to their homes and 
other personal property.
    The Virgin Islands Public School System sustained 
tremendous damages and is still in a State of disrepair. Arthur 
Richards Junior High School was entirely condemned by FEMA and 
is slated for a complete rebuild. Julius Sprauve on St. Thomas, 
a K through 8 school, is scheduled for rebuild as well.
    Many schools are being housed in temporary facilities. Lew 
Muckle and Pearl B. Larsen elementary schools have gotten some 
modular structures to replace condemned spaces and classrooms. 
Addilita Cancryn Junior High School in St. Thomas is currently 
housed on a football field of Charlotte Amalie High School, 
which has negatively impacted the school's recreation and 
athletic program. And modular facilities were recently 
constructed at the Arthur A. Richards Junior High School.
    Unfortunately, Alexander Henderson Elementary School had to 
be abruptly closed in April of 2019 and is now housed within 
the Arthur Richards site. Consequently, two schools are now 
occupying this complete modular site. This school is obviously 
overcrowded and has scaled back programs due to lack of 
sufficient classroom space.
    The western wing of the Eulalie Rivera Elementary School 
was totally destroyed and has since been condemned. Modular 
structures have been erected to replace the demolished 
classrooms. The condemned structure of the western-most wing on 
the site remains untouched and is surrounded by chain-link 
fencing.
    Recently, a wall at Lew Muckle Elementary School that 
housed 6 second and third grade classrooms collapsed, causing 
school officials to reassign teachers and students to 
classrooms that were out of commission. To date, nothing has 
been repaired in this area. Seemingly, no plans to do so exist.
    Both of our island high schools, St. Croix Central High 
School and St. Croix Educational Complex, are in desperate need 
of repair. The two schools are currently preparing for an 
accreditation visit from the Middle States Commission on Higher 
Education. If permanent repairs are not executed, the only two 
high schools on the island of St. Croix will likely lose 
accreditation.
    The air-conditioning units in our Career and Technical 
Education Center has been down for quite some time. The 
building leaks and has mold. We are concerned that students and 
school employees continue to get sick.
    We are essentially at a standstill regarding any pending 
permanent repairs by FEMA. Repeated damage assessments of our 
schools and activity centers and facilities have been executed 
by many government officials and agencies, and yet no concrete 
plan has been employed to begin to permanently fix our 
hurricane-ravaged schools and facilities.
    More than 20 months after the hurricanes, many of our 
educators continue to suffer from respiratory ailments related 
to mold and poor air quality in our schools and activity 
centers. Additionally, there is no drinking water in any of our 
public schools and the public water system dispenses rusty and 
discolored water daily.
    To date, our members and students continue to experience a 
slew of medical symptoms, including post-traumatic stress 
disorder. This was discovered during a recent visit by 
volunteer nurses, AFT nurses, who came to the Virgin Islands to 
perform hearing and vision screening. Many classrooms 
throughout all of our schools do not have desk and chairs for 
children or teachers or book cubicles or storage closets.
    At this phase, the Virgin Islands Department of Education 
has not released its summer maintenance plan to shore up our 
schools. The question we need answered: Where is the Virgin 
Islands Department of Education and FEMA with the permanent 
repair plans? And where is the U.S. Department of Education on 
its oversight? No definitive plans to complete permanent 
repairs have been unveiled to the union or community.
    [The statement of Ms. Soto-Thomas follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    

    Chairman Sablan. Ms. Soto-Thomas, thank you. Your testimony 
will be submitted into the record.
    I now recognize Mr. Winn for 5 minutes, please.

      STATEMENT OF MR. JOHN L. WINN, M.A., FORMER FLORIDA 
           COMMISSIONER OF EDUCATION, TALLAHASSEE, FL


    Mr. Winn. Thank you, Chairman Sablan, Ranking Member Allen, 
and members of the committee, for the invitation to share with 
you Florida's approach to disaster relief. I will focus my 
remarks primarily on the time in which I was commissioner from 
2004 to 2007, experiencing four hurricanes in 2004, Hurricane 
Charley, Frances, Jeanne, and Ivan, that devastated the State 
of Florida.
    To give you a sense of that level of devastation or effect 
on schools, we had 13 school districts that lost more than 10 
days of school and a number of them 3 weeks to 4 weeks of 
school.
    The hurricanes crisscrossed Florida for the large part, so 
3 weeks after Charley we were hit with another hurricane, and 
then another and another, over a period of 48 days.
    Florida has an emergency management system that runs 
simulations of disasters and as well as recovery efforts, and 
the Department of Education is a partner in that effort.
    We believe that reopening schools quickly is critical, not 
only for the impact that it has on student learning, but just 
as importantly, if not more, the impact on children's safety. 
More injuries and deaths occur after a hurricane than during a 
hurricane. We felt it was critical to get students back in 
schools so that they were not playing among debris and 
dangerous situations.
    Also, our relief efforts, in my opinion, in any State in 
rapid opening of schools must have the leadership of the State 
Governor. Only the Governor has the authority and ability to 
mobilize the National Guard and a lot of other partners that we 
relied on, such as FEMA, USDOE, Agriculture, military, as well 
as local and State from private sector, as well as thousands of 
volunteers who come to help cleanup schools to help them 
reopen.
    A quick and comprehensive reopening of schools after a 
disaster requires not a set of activities that are linear, but 
rather a set of activities for reopening schools that are 
actually all happening at the same level.
    Some of the things we learned was that school personnel 
were not able to utilize outside assistance the day after the 
hurricane struck. You have shock. You have needing time to 
assess their damages so that they know what type of help they 
need, as well as taking care of, for school personnel, many of 
their personal and family issues.
    We learned that it is important to have a single point of 
contact from the Department of Education to each school 
district that is affected. That facilitates communication and 
keeps the messages very clear, so we can act on them 
expeditiously.
    Another thing we learned is school districts, at least at 
that time, were not really used to getting help from outside, 
particularly for nontraditional areas, such as the National 
Guard, private industry, calling in to support what we were 
doing. So one of the things that we did was we brought partners 
to school district planning meetings to explain to district 
leadership how they could, in fact, help the recovery efforts 
in many ways.
    We also learned that virtually everyone was willing to help 
if contacted by the Governor or on behalf of the Governor.
    I gave you a list in my written testimony of a number of 
activities. I will highlight just a couple.
    Florida is a growth State and we use a lot of what we call 
relocatable classrooms to accommodate that growth because a 
school building cannot keep up with State growth.
    So when Hurricane Charley and the other three hurricanes 
hit, we needed to mobilize to use relocatable classrooms. We 
contacted the five major manufacturers and they all said that 
they were on back order from Florida. And so we called the 
Superintendents Association and requested that they redirect 
some of their relocatable classrooms to the affected areas, and 
they happily complied with that request.
    There were a number of issues that needed to be waived, 
regulations through the Governor's authority, as an emergency 
management situation.
    And I will be happy to answer further questions.
    [The statement of Mr. Winn follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Chairman Sablan. Thank you. Thank you very much for your 
testimony, Mr. Winn.
    I now recognize Dr. Herrington for 5 minutes.



  STATEMENT OF MR. STEVE HERRINGTON, PH.D., SUPERINTENDENT OF 
         SCHOOLS, SONOMA COUNTY SCHOOLS, SANTA ROSA, CA

    Mr. Herrington. Thank you.
    As an elected county superintendent of schools for Sonoma 
County, California, it is an honor to share with you the 
lessons learned from responding to the Tubbs Fire that 
devastated my community in 2017, and my experiences in helping 
the other educational leaders with similar disasters, such as 
the recent catastrophic camp fire in Butte County, as well as 
Shasta and Ventura Counties.
    I commend you for convening this hearing so that educators 
and emergency response agencies can be better prepared to 
support schools and children when the next disaster strikes.
    In Sonoma County, north of San Francisco, my office is 
privileged to serve 40 school districts that provide care and 
education to more than 71,000 students. Some districts are 
small and rural, serving as few as 10 students, while others 
are large and urban. Wine country is associated with high 
wealth, but more than 45 percent of our students are 
socioeconomically disadvantaged.
    In October 2017, our community experienced the Tubbs Fire. 
At the time, it was the most destructive and catastrophic 
wildfire in California history.
    In my 46 years as an educator, 36 as a superintendent, I 
have responded to numerous floods and earthquakes, but I have 
never seen a natural disaster take such a toll on the 
educational community as did the Tubbs Fire.
    The wildfire swept from the dry hills and into the city of 
Santa Rosa overnight, leaping a six-lane freeway and 
overwhelming our emergency services, forcing the closure and 
evacuation of two regional hospitals. It destroyed numerous 
school sites and the homes of nearly 1,500 students and 250 
school employees in Sonoma County.
    Wildfires in California that fall resulted in $8 billion in 
property damage and more than 40 deaths. Since then, as you 
know, similar wildfires have burned into California 
communities, causing even more devastation than ours.
    Today, I would like to share with you a few lessons my 
colleagues and I have learned from these disasters and how I 
believe the Federal Government can help schools reopen. The 
committee has a full copy of my report. I will highlight a few 
items.
    Reopening schools. Schools are essential to restoring 
normalcy within a community. Because of the catastrophic size 
of our fire, there were unprecedented issues to deal with, such 
as the ensuring of safety of buildings and dealing with toxic 
ash and waste debris.
    The State convened a special task force to help schools 
address unanswered questions and reopening. Still, guidance is 
needed to be provided from EPA on how toxic ash should be dealt 
with in this situation.
    School facilities. When school is destroyed, finding an 
alternate location to hold classes can be a challenge, 
especially when 90 percent of the community is destroyed, such 
as in Paradise, California. If the Federal Government could 
provide portable classrooms from the Department of Defense--I 
served in the Army during the Vietnam war--or FEMA, it would 
greatly resolve this problem and schools could reopen sooner 
and create a sense of normalcy to a community.
    Grants, such as RESTART and Project SERV, are valued and 
appreciated; however, to enable a school district to best 
utilize these funds, there needs to be greater flexibility 
built in to regarding how they can be spent and over what time 
period.
    Disasters like ours and schools have experienced have 
consequences that unfold for years, and effectively utilizing 
these funds to address community needs may take longer than the 
current time constraints on the grants.
    Preparation. The likelihood of a similar disaster is very 
high. A report commissioned by the California recently 
predicted that if emission trends that lead to climate change 
continue, the average burn area in California will increase by 
77 percent by the end of the century.
    My office has applied for a hazard mitigation plan grant 
after finding that schools are often omitted from county and 
city plans. We recently learned that schools may be eligible 
for additional funding in the event of a disaster if they have 
these plans in place.
    Mental health support. It's effects of trauma on community 
events are long lasting. Sonoma County Schools are still 
dealing with a large number of traumatized student staff, with 
surveys of schools showing that this has a serious and negative 
impact on students.
    Testing waivers were not granted to our schools. We applied 
for testing waivers to the Federal Government and we did not 
receive any waivers for testing.
    This is true in the Tubbs Fire of this year. So flexibility 
was not shown there. It was granted by the State of California, 
but when it went to the Federal Government it did not. And this 
means those schools will have negative scores posted on their 
accountability report cards in the State of California.
    Thank you.
    [The statement of Mr. Herrington follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Sablan. Thank you very much, Dr. Herrington.
    Under Committee Rule 8(a), we will now question witnesses 
under the 5-minute rule. As chair, I have decided to go at the 
end, so I will yield to Mr. Morelle, who will be followed by 
the ranking member, Mr. Allen. We will then alternate between 
the parties.
    But, Commissioner Muna, my apologies, when it is my time to 
question, for questioning, we would have your video--I mean, 
your slide show on. We were not able to do that.
    So Mr. Morelle, you have 5 minutes, please.
    Mr. Morelle. Thank you, Mr. Chairman again. Thank you for 
what is a really very enlightening and important hearing.
    And thank you to all the witnesses for being here.
    My first question was actually going to be, what are the 
direct impacts that you have observed of natural disasters on 
the student experience? And I think, Dr. Herrington, you 
certainly, I think, detailed at the end of your testimony 
exactly some of the things that you have seen. So I will pass 
on that.
    But I do thank you, because I think sometimes we think of 
these big picture things, understandably, we think about 
buildings, facilities. This is really about children as well, 
more importantly than anything, and talking about those 
impacts, I think, was very, very important.
    I am curious, and this may be more for you, Dr. Herrington, 
as a school superintendent, how have the disasters that you 
have faced changed your approach to preparedness? And do 
students feel a sense of preparedness, or are they not likely 
in the moment to be thinking about that?
    Mr. Herrington. Well, we have applied for a preparation 
grant that I told you about earlier, which was not known to us 
at the time. And I think FEMA and the Department of Education 
needs to make a proactive approach to that so districts can 
prepare for those grants--our application is pending for this 
year--because cities and counties apply for it, but they often 
forget to bring the school system into the planning.
    Another one of your questions was as it deals with the 
impact on students. The Tubbs Fire, which occurred this year, I 
don't know if you had the chance to see the aerial view of the 
wind pattern, but all the smoke from the Tubbs Fire, which was 
in Butte County, landed for some reason in Sonoma County.
    Now, we are 250 miles away from Butte County, but the 
residual impact was there, and it came in October when our fire 
occurred. So you want to see trauma reenacted? Children, once 
again, started to panic.
    So planning for these type of things, we are doing long-
term psychological training for teachers on how to deal with 
trauma in the classroom.
    Mr. Morelle. And you are doing this in anticipation of 
further events, so you are doing it proactively.
    Mr. Herrington. I anticipate further. This is a proactive 
event. We train every year now.
    Mr. Morelle. Good.
    I am interested, clearly, the importance of making schools 
safer and more resilient. I mentioned this a little earlier 
when the Assistant Secretary was here.
    In my previous experience as Insurance Chair of the New 
York State Assembly, this was a big issue for hurricanes and 
other disasters at the State level, how to improve school 
buildings, make them safer proactively, so that they are more 
resilient, that we have less property damage, but less of an 
impact on health and safety.
    What would it mean for your school districts--and I am 
happy to hear answers from any of your observations--to receive 
support from the Federal Government to improve your existing 
school infrastructure in anticipation?
    Anyone?
    Dr. Herrington, you obviously have physical facilities.
    Mr. Herrington. Okay. California has the Field Act, which 
is a very stringent act for earthquakes. We are very prepared 
for earthquakes and we deal with them all the time.
    But I will tell you that, from my perspective, it is for 
preparation of a facility in California. I don't think it is as 
needed. I think the islands here seem to have more of a need 
for Federal Government because of the Commonwealth standing for 
that. And so I would defer to Dr. Muna if he might wish to 
speak to that.
    Mr. Morelle. Yes, Commissioner, do you have observations 
about that in terms of creating greater resiliency in a 
proactive way prior to natural disasters hitting?
    Mr. Muna. Well, one of the things that I mentioned in my 
oral testimony is really taking a look at our islands. So we 
know that we are prone to more typhoons. We need to harden our 
roofs, get rid of all the tin roofs, and just put concrete. 
Make it really sustainable to withstand stronger winds.
    The buildings that were damaged were really those buildings 
that had tin roofs and also some of them that were wooden. 
Those were all the ones that were really severely damage.
    Mr. Morelle. So support from the Federal Government 
potentially to be able to deal with some of those issues prior 
to additional episodes would be, I assume, welcome on your 
part?
    Mr. Muna. Well, I am also thinking of, like, the FEMA 
requirement beyond the tarps and plywood. That is considered 
temporary repair. If we want to do the needed repairs and do 
permanent repairs then that tends to limit the amount in 
terms--or our chances of applying for hazard mitigation. So 
maybe a little more flexibility in regards to that.
    Mr. Morelle. Very good.
    Thank you, Mr. Chairman, I yield back my time.
    Chairman Sablan. Thank you, Mr. Morelle.
    I now recognize the distinguished ranking member for his 5 
minutes of questions.
    Mr. Allen. Thank you, Mr. Chairman.
    Mr. Winn, I know, and of course you shared in your 
testimony that you were Commissioner during a particularly 
difficult hurricane period for Florida. You mentioned in your 
testimony four hurricanes that struck the State in 2004, and I 
think hearing a little more about these would give the 
subcommittee a better understanding of the magnitude of the 
challenge State and local officials face.
    Can you tell us what the extent of the damage to the 
schools resulting from those hurricanes in more detail?
    And also, I want to give credit to the State of Florida for 
your excellent response. I have heard about the readiness and 
many of the things that you did to make sure that any future 
disasters are dealt with in an appropriate way.
    So if you could go into more detail on that, I think it 
would be helpful for us.
    Mr. Winn. Thank you for the question.
    The devastation in Florida was just incredible. We had $48 
billion worth of damage in the State of Florida in a period of 
basically 48, 50 days.
    And so if you can imagine, particularly, we had swaths 
through, when Hurricane Charley hit in Charlotte County, Punta 
Gorda on the western side of Florida below Tampa, went across 
the State, virtually obliterated all of the mobile home parks 
in its path.
    Charlotte County completely lost the use of 8 of its 16 
schools. And we worked with a variety of partners and the 
school district to establish double sessions. So, the remaining 
eight schools had to work on double sessions, starting earlier 
in the morning and then the second session in the afternoon.
    One of the things that we realized there were the school 
bus routes were not limited to just the main roads. Cities and 
counties, their top priorities for getting traffic moving are 
their main roads. We had people living out in the rural areas 
through dirt roads and everywhere else.
    So we got the school districts, and we did this for all of 
them, got the school districts' bus routes, and since our 
National Guard was mobilized, they have a construction team in 
Florida they call the RED HORSE Construction, who cleared those 
roads so that school buses, when the schools were ready to 
open, the school busses could get there.
    We had 8.5 million people in Florida, families in Florida, 
were without electricity, and that was at a time when Florida 
had 16 million people. So we had 9.5 million people evacuate at 
some time during that summer.
    So you can see basically half of Florida was affected. We 
had every school district in Florida lost at least 1 day due to 
hurricane or closing in anticipation of a hurricane.
    Preparation at that time, unfortunately, was nowhere near 
what it is today. For example, in Hurricane Charley, it was 
supposed to hit, according to all the predictions, supposed to 
hit Tampa, and it took a sharp right turn and hit Charlotte 
County instead. So Charlotte County had not really prepared.
    So the cone, although that is very helpful to have a cone 
in your--people are really focused on whether it is going to 
hit their particular school district. And Florida has very 
large school districts, only 67 in the State.
    So the devastation, every hurricane had different problem 
areas. Hurricane Charley was wind damage, Hurricane Frances and 
Jeanne flooding, and not only flooding at the time because of 
the rain, but flooding because of swollen rivers. I can 
remember walking through four, five, six inches of water in 
elementary schools and middle schools.
    Mr. Allen. I am just about out of time.
    How did you coordinate all these partnerships? In other 
words, somebody had to be directing the efforts of the National 
Guard. And we have got 4 seconds to answer that.
    Mr. Winn. Well, the Governor assigned me to coordinate for 
purposes of opening schools.
    Mr. Allen. So you did it all.
    Mr. Winn. So, we established a contact for each school 
district, and I personally went to school districts to meet 
with superintendents on their needs.
    All these partnerships don't happen by accident. Somebody 
has to invite or request. We had a lot of private companies 
providing free books to students while they were out of school. 
We had companies donating backpacks, school supplies, not just 
for students but for teachers as well when they went back to 
school.
    Mr. Allen. I am out of time.
    Mr. Winn. We were incredibly fortunate to have those kinds 
of reactions and partners.
    Mr. Allen. Thank you, and I yield back.
    Chairman Sablan. Thank you, Mr. Allen.
    I would now like to recognize Mr. Scott for his 5 minutes 
of questioning.
    Mr. Scott. Thank you. Thank you, Mr. Chairman.
    Ms. Soto-Thomas, your testimony was cutoff because it was 
going over 5 minutes. Was there something you were not able to 
say?
    Ms. Soto-Thomas. Well, one of the major issues that we are 
facing in the Virgin Islands is, of course, we have heard it 
over and over again, is--
    Chairman Sablan. Is your button on? Can you turn it on? 
Thank you.
    Ms. Soto-Thomas. Thank you.
    One of the major issues that we continue to deal with in 
the Virgin Islands is, you know, the slowness of the FEMA 
monies coming to the Virgin Islands, the release of funds, the 
drawing down of funds, and that has been happening since the 
storm.
    And members and citizens, parents, my members, teachers, 
paraprofessionals, support staff are very concerned because we 
are approaching summer, we have about 2 weeks left of school, 
and there is no plan in place for the repair of our buildings.
    A lot of the members continue to get sick and, you know, we 
continue to want answers. We want communication to flow 
smoothly. We are not getting updates in terms of the FEMA 
monies.
    And the Department does not, apparently, have a plan. They 
don't have a clear plan in place as to what maintenance is 
going to take place over the summer.
    There is always this talk about temporary versus permanent 
repairs, and I am not certain where we are with that. But it is 
very confusing because many people continue to conduct 
assessment of our schools, and we are not seeing results at the 
level that we need to.
    Mr. Scott. Well, and how is that affecting the students' 
ability to learn?
    Ms. Soto-Thomas. Well, it is affecting it because a lot of 
them are out sick. Those who have respiratory problems like 
asthma and whatnot, they are out sick on a regular basis.
    And right now--well, prior to--I guess about 2 months ago, 
there were major problems with the water situation, water 
pressure, water pressure on the island, and that caused the 
schools to be canceled regularly. But since then, I am glad to 
report that the Governor got some pumps fixed, and so the 
system is working. But there is still a lot of rust in the 
water that is coming through the pipes.
    Mr. Scott. Well, how is all of this affecting test scores?
    Ms. Soto-Thomas. I would assume that it is affecting test 
scores, because when following the storms we were in split 
sessions. Kids only received 4 hours of instruction immediately 
following the storm, so they lost a lot of instructional time. 
So definitely I would think that would have a great impact on 
scores, on their performance.
    Mr. Scott. Is there any effort to use the summer to try to 
catch up?
    Ms. Soto-Thomas. I know there are some summer camps that 
are planned, but I don't know the extent of it, I mean, how 
many students will be accommodated, if they are funding to 
accommodate a great number. I am not certain about that at this 
time.
    Mr. Scott. I think it was your testimony that suggested 
that some post-traumatic stress was occurring.
    Ms. Soto-Thomas. Correct.
    Mr. Scott. What kind of educational strategy will be used 
to address this trauma?
    Ms. Soto-Thomas. Well, I know that the union is trying to 
get some assistance in terms of the post-traumatic stress 
disorder because we started to experience a lot of winds and 
rain. Now we are in the hurricane season. It started June 1. 
So, the fears and anxieties are emerging again. And I am hoping 
that the Department of Education in the Virgin Islands is also 
looking at that.
    The issue is collaboration. I am hoping that they 
collaborate with the unions more. And we have a partner with--
we have a relationship with the Department of Health, the 
union, so we are reaching out to them in that regard also and 
talking to the Commissioner of Education to ensure that these 
programs become available for the students of the Virgin 
Islands to address the post-traumatic stress disorder.
    Mr. Scott. Before they can get to the students, they have 
to get to the teachers. Is there technical assistance to inform 
teachers how to deal with students who have experienced trauma?
    Ms. Soto-Thomas. I believe that there are programs in 
place. As a school psychologist, when I worked, there is a 
referral process. If teachers see students exhibiting, you 
know, certain behaviors, then referrals are put in place so 
students can be referred to respective agencies or what have 
you.
    But to say that there is a major contracting of 
psychologists or counselors or what have you, I haven't heard 
of that happening.
    Mr. Scott. Or working with teachers so they will be 
empowered to deal with students who have been subject to 
trauma?
    Ms. Soto-Thomas. I want to add that teachers have access to 
counseling. The insurance that the employer provides gives them 
that latitude. There are a number of visits that they can have 
to a counselor if they choose to.
    Mr. Scott. Mr. Chairman, could I just make a quick point?
    In teaching, there are ways of teaching students who have 
been exposed to trauma, and I think we need to make sure that 
is available, that strategy that teachers could use would be 
available.
    I appreciate your indulgence.
    Chairman Sablan. The chairman's point is very well noted.
    I would now like to recognize Mr. Taylor. I thought you 
switched sides, but I guess you went back.
    Mr. Taylor. Thinking about it.
    Chairman Sablan. Mr. Taylor for 5 minutes.
    Mr. Taylor. Thank you, Mr. Chairman.
    I just want to build on Chairman's Scott line of 
questioning, Mr. Winn. In terms of thinking about school 
districts that suspend education because of a disaster, what 
are you seeing, and how do you think about helping students who 
miss 3 weeks, a month, 2 months of school? Are you extending 
the school days? Are you extending the school year? Are you 
doing afterschool programs based on testing performance? How do 
you think about making up the time that is lost as a result of 
a disaster?
    Ms. Soto-Thomas. Well, I--
    Mr. Taylor. I am sorry. That was for Mr. Winn. I was asking 
about Florida.
    Ms. Soto-Thomas. Oh, Okay.
    Mr. Taylor. I was thinking about a Statewide question. Are 
you doing that by--is it district by district, county by 
county? Is there a Statewide answer? How are you thinking about 
that?
    Mr. Winn. Yes. That was a huge issue. Legislation, our 
statutes in Florida require that students receive 180 days of 
instruction during the school year. So the school calendars are 
already set.
    Mr. Taylor. Does it stipulate the number of hours per day?
    Mr. Winn. A hundred and 80 days.
    Mr. Taylor. But not the number of hours?
    Mr. Winn. Five and a half hours a day.
    Mr. Taylor. Five and a half hours of instruction or time on 
campus.
    Mr. Winn. Yes. So that was a big issue. There was already 
legislation that allowed up to 3 days for disasters. That was 
clearly not enough. And as a part of my authorization as 
Commissioner of Education by the Governor, I was able to 
negotiate with school districts how they would use either extra 
hour during the day or some of the breaks during the school 
year, where schools would normally be closed, they would be 
open.
    And also to negotiate a larger amount of time--a shorter 
amount of time. So, for example, many school districts, instead 
of only getting 3 days may have gotten 6, 6 days of waiver of 
the school year.
    Interesting to note that our 13 districts, school 
districts, that had 10 or more days in which schools were 
closed, those students in the State assessment program 
outgained, in terms of reading and mathematics, outgained the 
State average, each and every one of them.
    And I attribute that to the tremendous work of the school 
personnel and teachers who realized that they were sort of 
behind the eight ball with regard to loss of instructional 
time, and I think they redoubled efforts to improve 
instruction.
    I think students were happy to be back in school, a sense 
of normalcy, for air conditioning if for nothing else.
    But anyway, all of the reports were that the students were 
doing well. And, of course, we had upgraded counseling services 
for students who had issues of loss at home and needed some 
counseling to help them through those.
    Mr. Taylor. Well, let me just say that is really inspiring, 
and it sounds like you have done the longitudinal study to 
determine the performance of the districts where there were 
losses of time. Is that correct?
    Mr. Winn. Yes.
    Mr. Taylor. Okay.
    If you could share that report with us, and I will speak 
for Chairman Scott. I think he is interested in seeing that as 
well, based on his previous questioning, because that is 
interesting to us.
    And so it's not just they are going back to school, they 
are actually extending the day or putting more instruction time 
into the day, so you are going from 5 and a half hours of 
instruction to 6 or 6 and a half? Is that accurate? Is that 
what is happening?
    Mr. Winn. Yes. Each school district had their own plan on 
how to extend, how to meet that requirement. So we negotiated, 
depending on their own calendars, how many breaks they had and 
those kinds of things.
    So we negotiated to get--our goal is to have as many days, 
as many instructional hours as possible with all the students, 
but to also be realistic in resetting those schedules.
    As you know, schedules, once they are set, it could be very 
controversial with parents and vacations and all that goes on 
with school breaks and that sort of thing. So each school 
district had its own kind of tailored plan to help get students 
in schools for the full year.
    Mr. Taylor. All right. Well, thank you very much. That is 
very informative testimony.
    Mr. Chairman, I yield back.
    Chairman Sablan. Thank you, Mr. Taylor.
    At this time, I would like to recognize Ms. Schrier for her 
5 minutes.
    Ms. Schrier. Thank you, Mr. Chairman.
    Thank you to all of our witnesses.
    Dr. Herrington, I have some questions specifically for you. 
You are from California, you have gone through a ton of 
wildfires. I am from Washington State, and we are experiencing 
some of the same, not to the same degree. But climate is 
changing, and we are now at a point where our family plans our 
road trips based on when fires happen.
    I represent a district that straddles the Cascade 
Mountains, and so I live in the western or wet part of the 
State, where you would think we would be absolutely insulated 
from fire, but that has changed. As of April, we now have high 
risk areas even in western Washington.
    When you cross the Cascades, it is the dry part of the 
State, fires every year, absolutely predictable. And we have 
forests that need management. We are looking at a tinder box 
over there.
    We have stretched resources and firefighters who are 
thinking they might not be able to go to the next California 
fire because they will be busy in our own State.
    My son spent the first couple weeks of the last couple 
years at PE having to be in the gym with hundreds of other kids 
because they couldn't go outside.
    And so, I wanted to just ask you as we get further into 
this scenario what you would recommend for us because we may 
have this fire season going into September, even October, how 
we can best help our students in western and eastern 
Washington.
    Mr. Herrington. Well, first of all, I relied on Washington 
for the air quality index. Yours is one of the few States that 
has an air quality index for schools. And we had the smoke from 
the Butte fire come into ours, so we had to use that as a 
guideline.
    But I think every school district in the State of 
California has now given guidelines, needs to set air quality 
control index standards for fires so you know what is safe for 
children and the exposure level.
    Whatever rate you set, I will tell you this as a 
superintendent, it is not going to be the right rate for some 
parents. And I advise parents who have children with asthma, 
you are a parent, take control, decide what is safe for your 
child. If you keep them home, it is an excused absence. But 
whatever you set won't be satisfactory because I have been 
there.
    But I would also tell you that we are going through in 
California an extended fire season. We have extended our fire 
season. So we have gone through training for evacuation, what 
does every household have ready to go. We learned that from 
Florida. And so we picked up on other States what they have 
done, because we have never had a fire season as horrific as 
this past one.
    And you need to know about evacuation patterns and routes. 
You want to move a community. I had to house 20,000 residents. 
That was the call I got at 1 a.m. in the morning: Dr. 
Herrington, open the schools because we need to put shelters in 
place.
    How do you get them there? And the routes are all jammed 
because everyone is evacuating a fire that is moving one 
football field a minute through your community because of the 
winds. Use your school buses. So we have learned that school 
buses are a resource to our main transportation system.
    Now, in the Butte fire, the buses actually melted on the 
road, because the tires were melting because the fire was so 
hot. So you had to get the children off the bus and into 
private cars to get them out.
    But I will tell you that you need to have an evacuation 
pattern for schools. And it came to our benefit this year when 
we had floods. I mean, we got hit with fires. Now we have a 
flood.
    And so when the Russian River flooded in Sonoma County, we 
knew how to evacuate in the middle of the day, what routes to 
use. We have a communication system with the California Highway 
Patrol.
    So having your resources connected is important. Having 
schools in your command center for emergency services is 
essential. And we are advising our local schools that if you 
are in a city jurisdiction, that you should be part of the 
city's command center. It is not an afterthought, because 
schools create normalcy, as we were talking about, and you need 
to reopen schools as soon as possible because it gives children 
a sense of security.
    So those are some of the key things is, do you have an 
evacuation plan? Do you have an air quality control index plan? 
How do you reopen a school that has air and ash? Once again, 
ash is a big thing if it is a residential fire. So I hope that 
gives you some guidance.
    Ms. Schrier. That was really helpful. Thank you.
    I yield back my time.
    Chairman Sablan. Thank you very much.
    Now I will claim my 5 minutes for questioning.
    I am going to give a minute each to Superintendent 
Herrington, Ms. Soto, and then I come to Commissioner Muna, 
because you all mentioned in your testimonies about addressing 
the mental health of your students and school staff. I am 
following up with Mr. Taylor and Bobby Scott's questioning.
    There is no question trauma impacts a student's ability to 
learn and an educator's ability to teach. Now, what I want to 
know is, starting with Dr. Herrington, what I want to know is 
how each of your schools have approached addressing this need 
and the source of funding? How would you assess the Federal 
Government's response to addressing mental health at your 
schools? One minute.
    Mr. Herrington. We are using Project SERV funds as much as 
possible. We have reapplied for an extension of those funds 
with the State of California.
    But basically I have 4,000 students impacted by trauma, 
they are still recorded, they are still on our records, and 
over 400 teachers or public employees, school employees, that 
are still impacted from the fires.
    Chairman Sablan. And you have access to private 
professionals?
    Mr. Herrington. With the cooperation from New York Life 
Insurance, we have created a trauma support system. They have 
an outreach grant. Medtronics has an outreach grant. So we have 
gotten private funding, public funding to extend those 
behavioral health counselors.
    Chairman Sablan. Thank you.
    Ms. Soto-Thomas, same question. How does your school 
approach addressing this need and the source of funding? And 
how would you assess the Federal Government's response to 
addressing mental health at your schools?
    Ms. Soto-Thomas. Well, like I mentioned earlier, the health 
insurance that is offered to the members of the AFT, it comes 
with sessions. If teachers feel the need to attend sessions, 
they can. It comes at no cost.
    But I do see a greater need in terms of our students to 
build resiliency. And we are in that hurricane season right 
now. There are a lot of challenges because a lot of our homes 
are not fixed.
    Chairman Sablan. Right. But you have private providers.
    Ms. Soto-Thomas. We do have private providers for the 
teachers, all right, and paraprofessionals. I am not certain 
how much of the mental health services in the community are 
being offered to the children of the Virgin Islands, Okay, 
because the hospital isn't fixed yet. I mean, there are many 
challenges that we have on the island right now. They are still 
erecting the modular hospital.
    So there are a number of challenges, but I would assume 
that the health commissioner is actively engaged in that 
process. I may be unaware of it.
    Chairman Sablan. Thank you. I need to move.
    Mr. Muna, in working with our veterans, I know we have 
hardly any mental professionals in the private sector. So, I 
want to know how your schools are addressing this need for 
mental counseling and the source of funding. How do you assess 
the Federal Government's response to addressing mental health 
at public school systems?
    Mr. Muna. So within a month after our typhoon, I mentioned 
that we were able to secure funding through Project SERV. We 
were able to hire two mental health counselors that have been 
working with our students and our staff and their families.
    In addition to that, those two mental health counselors are 
working with our school counselors to provide them with 
training and support so that they can reach more students and 
staffs and their families.
    Chairman Sablan. But those two aren't enough for students, 
let alone the teachers.
    Mr. Muna. So that's the reason. And that is true. But 
that's the reason why that they are also working with other 
counselors, our school counselors.
    Chairman Sablan. And your slides are coming up at the same 
time, Commissioner.
    Commissioner, can you tell the committee more about the 
FEMA tents which Hopwood Middle School students are learning 
in? And how does this learning environment affect the student 
grades, attendance, and teachers? Are there aspects of the 
school's curriculum that has to be changed as a result? Am I 
going to attend graduation at Hopwood or at where they are now?
    Mr. Muna. Well as the panel up here or the witnesses 
mentioned, opening the schools really determines how fast we 
are able to get that sense of normalcy to our students and the 
families. That we took into consideration when we were 
coordinating with FEMA.
    At the time when we started to work on trying to identify a 
location for Hopwood Middle School, we were looking at Project 
SERV and the availability of commercial buildings. That was not 
available at that time that we were trying to build our 
schools.
    So what we ended up doing was we coordinated with FEMA, 
looked at different contractors that were able to provide the 
facilities that we needed. And that is why we ended up going 
with the Alaska model, 42 tents, that were made available to 
the public school system.
    Attendance. We did see a decrease of students coming to 
school only because we also had to relocate from the central 
part of the island down to the southern part of the island.
    Chairman Sablan. Thank you. And, Commissioner, chairmanship 
doesn't give me extra time, but I will say that in one of your 
concerns, about building resilient schools, Chairman Scott and 
I and some of our committee members introduced RASA, a bill to 
provide $100 billion for exactly that purpose. We are hoping we 
could get it out of committee, onto the floor, and out of the 
House and actually past Congress. Thank you very much.
    Let me go to the admin stuff for now. I remind my 
colleagues that, pursuant to committee practice, materials for 
submission for the hearing record must be submitted to the 
committee clerk within 14 days following the last day of the 
hearing, preferably in Microsoft Word format.
    The material submitted must address the subject matter of 
the hearing. Only a member of the committee or an invited 
witness may submit materials for inclusion in the hearing 
record.
    Documents are limited to 50 pages each. Documents longer 
than 50 pages will be incorporated into the record via an 
internet link that you must provide the committee clerk within 
the required timeframe. But please recognize that years from 
now that link may no longer work.
    Again, I want to thank the witnesses for their 
participation today. What we have heard is very valuable. 
Members of the committee may have some additional questions for 
you, and we ask the witnesses to please respond to those 
questions in writing. The hearing record will be held open for 
14 days in order to receive those responses.
    I remind my colleagues that, pursuant to committee 
practice, witness questions for the hearing record must be 
submitted to the majority committee staff or committee clerk 
within 7 days. The questions submitted must address the subject 
matter of the hearing.
    And I now recognize my friend, the distinguished ranking 
member, for his closing statement.
    Mr. Allen. Thank you, Mr. Chairman.
    And I, too, want to thank the witnesses for being here 
today and taking your valuable time to share with us some of 
these events that have taken place, these disasters in your 
communities. I also want to thank Assistant Secretary Brogan 
for being here earlier.
    We've learned that local and State leadership is critically 
important to effective disaster preparation and recovery. We've 
also learned that the Department of Education is working to 
expand its capacity for supporting State and local preparation 
and recovery efforts.
    I look forward to working with the Department and State and 
local constituents to ensure that they have the flexibility 
under Federal law, under our jurisdiction, they need to 
expedite recovery efforts as much as possible.
    Mr. Chairman, thank you for holding this hearing, and I 
yield back.
    Chairman Sablan. Thank you very much, Ranking Member Allen.
    And now my closing statement.
    I want to thank all our witnesses for your willingness to 
share difficult memories of recovering. I want to thank 
Secretary Brogan for also being here. And you're helping 
students recover from natural catastrophe.
    Today's hearing examined the Federal Government's response 
to school communities devastated by recent natural disasters, 
Super Typhoon Yutu in the Northern Mariana Islands, Hurricanes 
Irma and Maria in Puerto Rico and the United States Virgin 
Islands, and the Tubbs and Camp Fires in Northern California.
    The challenges our witnesses recounted today of restoring 
classrooms weeks or even months after natural disasters are 
nothing short of harrowing. From rebuilding entire schools in 
Saipan to battling toxic air quality in Sonoma County, already 
undersupported school communities have disproportionately 
suffered the devastation of natural crisis.
    More importantly, our discussions today reveal that while 
these communities have demonstrated resilience and strength in 
recovery, they have had to do so largely without the Federal 
support they deserve and need. The Trump administration 
continues to deny the reality of climate change and ignore its 
own research proving that climate change is making natural 
disasters more destructive.
    And Republican lawmakers, most of, not all, have repeatedly 
blocked passage of a key disaster aid bill that would have 
dedicated the funds necessary to help impacted communities 
recover. That one actually occurred just last Monday.
    As the climate change crisis continues to worsen, Congress 
and this committee must commit to investing in public school 
infrastructure, ensuring vital resources for school communities 
recovering from natural disasters and putting the victims of 
national disasters before politics.
    All school communities deserve the assurance that the 
Federal Government will aid them in time of need and crisis. 
Only when we fulfill this promise can we ensure that students, 
families, and school staff not only get back on their feet 
after natural disasters, but stand stronger than ever.
    Thank you again to our witnesses.
    Thank you for the members, for their indulgence.
    There being no further business, and without objection, the 
committee stands adjourned.
    [Questions submitted for the record and their responses 
follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Mr. Brogan's response to questions submitted for the 
record follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Mr. Winn's response to questions submitted for the record 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Whereupon, at 11:42 a.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
